<html>
<title> - KEEPING COLLEGE WITHIN REACH: DISCUSSING PROGRAM QUALITY THROUGH ACCREDITATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





   KEEPING COLLEGE WITHIN REACH: DISCUSSING PROGRAM QUALITY THROUGH 
                             ACCREDITATION

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HIGHER EDUCATION
                         AND WORKFORCE TRAINING

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JUNE 13, 2013

                               __________

                           Serial No. 113-22

                               __________

  Printed for the use of the Committee on Education and the Workforce


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

81-336 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001















                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Tom Price, Georgia                   Ruben Hinojosa, Texas
Kenny Marchant, Texas                Carolyn McCarthy, New York
Duncan Hunter, California            John F. Tierney, Massachusetts
David P. Roe, Tennessee              Rush Holt, New Jersey
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Timothy H. Bishop, New York
Brett Guthrie, Kentucky              David Loebsack, Iowa
Scott DesJarlais, Tennessee          Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Larry Bucshon, Indiana               Jared Polis, Colorado
Trey Gowdy, South Carolina           Gregorio Kilili Camacho Sablan,
Lou Barletta, Pennsylvania             Northern Mariana Islands
Martha Roby, Alabama                 John A. Yarmuth, Kentucky
Joseph J. Heck, Nevada               Frederica S. Wilson, Florida
Susan W. Brooks, Indiana             Suzanne Bonamici, Oregon
Richard Hudson, North Carolina
Luke Messer, Indiana

                    Juliane Sullivan, Staff Director
                 Jody Calemine, Minority Staff Director
                                 ------                                

        SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE TRAINING

               VIRGINIA FOXX, North Carolina, Chairwoman

Thomas E. Petri, Wisconsin           Ruben Hinojosa, Texas,
Howard P. ``Buck'' McKeon,             Ranking Minority Member
    California                       John F. Tierney, Massachusetts
Glenn Thompson, Pennsylvania         Timothy H. Bishop, New York
Tim Walberg, Michigan                John A. Yarmuth, Kentucky
Matt Salmon, Arizona                 Suzanne Bonamici, Oregon
Brett Guthrie, Kentucky              Carolyn McCarthy, New York
Lou Barletta, Pennsylvania           Rush Holt, New Jersey
Joseph J. Heck, Nevada               Susan A. Davis, California
Susan W. Brooks, Indiana             David Loebsack, Iowa
Richard Hudson, North Carolina
Luke Messer, Indiana












                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 13, 2013....................................     1

Statement of Members:
    Foxx, Hon. Virginia, Chairwoman, Subcommittee on Higher 
      Education and Workforce Training...........................     1
        Prepared statement of....................................     3
    Hinojosa, Hon. Ruben, ranking minority member, Subcommittee 
      on Higher Education and Workforce Training.................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Carey, Kevin, director, Education Policy Program, New America 
      Foundation.................................................    32
        Prepared statement of....................................    34
    McComis, Dr. Michale S., executive director, Accrediting 
      Commission of Career Schools and Colleges (ACCSC)..........    14
        Prepared statement of....................................    15
    Neal, Anne D., president, American Council of Trustees and 
      Alumni.....................................................    18
        Prepared statement of....................................    20
    Sibolski, Dr. Elizabeth H., president, Middle States 
      Commission on Higher Education.............................     6
        Prepared statement of....................................     8

 
                     KEEPING COLLEGE WITHIN REACH:
                       DISCUSSING PROGRAM QUALITY
                         THROUGH ACCREDITATION

                              ----------                              


                        Thursday, June 13, 2013

                     U.S. House of Representatives

        Subcommittee on Higher Education and Workforce Training

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:02 a.m., in 
room 2175, Rayburn House Office Building, Hon. Virginia Foxx 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Foxx, Petri, Walberg, Salmon, 
Guthrie, Brooks, Hudson, Hinojosa, Tierney, Bonamici, and 
Davis.
    Also present: Representative Kline.
    Staff present: Katherine Bathgate, Deputy Press Secretary; 
James Bergeron, Director of Education and Human Services 
Policy; Casey Buboltz, Coalitions and Member Services 
Coordinator; Heather Couri, Deputy Director of Education and 
Human Services Policy; Amy Raaf Jones, Education Policy Counsel 
and Senior Advisor; Nancy Locke, Chief Clerk; Brian Melnyk, 
Professional Staff Member; Krisann Pearce, General Counsel; 
Nicole Sizemore, Deputy Press Secretary; Emily Slack, 
Legislative Assistant; Alex Sollberger, Communications 
Director; Alissa Strawcutter, Deputy Clerk; Tylease Alli, 
Minority Clerk/Intern and Fellow Coordinator; Kelly Broughan, 
Minority Education Policy Associate; Jody Calemine, Minority 
Staff Director; Jamie Fasteau, Minority Director of Education 
Policy; Rich Williams, Minority Education Policy Advisor; and 
Michael Zola, Minority Deputy Staff Director.
    Chairwoman Foxx. Good morning, everyone.
    A quorum being present the subcommittee will come to order.
    Welcome to today's hearing. I would like to start by 
thanking our panel of witnesses for joining us to discuss the 
accreditation process and its role in our nation's higher 
education system.
    Based on an idea of self-regulation, accreditation was 
originally developed to assure and improve excellence in higher 
education programs When the federal government began putting 
money into higher education, accreditation took on another role 
by ensuring that the gate to federal funds is open only to 
qualified academic institutions.
    Today, the federal government, states, and accrediting 
agencies, known collectively as ``the triad,'' work together to 
determine which institutions are eligible to participate in 
federal student aid programs
    Accrediting agencies are given a great amount of authority 
in the process, establishing standards and conducting peer 
review evaluations of postsecondary institutions.
    By design, assessing program quality meant to be a non-
governmental process. Entrusting independent bodies, not the 
Department of Education or Congress, with this responsibility 
has preserved institutional autonomy and academic freedom 
within our higher education system. This framework has helped 
to maintain a crucial balance between flexibility for 
institutions and accountability for students and taxpayers.
    However, as our higher education system adapts to embrace 
21st century technologies and changing student demographics, we 
must now explore whether the accreditation system is also due 
for reforms.
    Advances in technology have introduced new programs, 
platforms, and environments for learning into the higher 
education community. Massive, open, online courses have 
modernized instructional delivery by providing a wide variety 
of postsecondary courses and degree opportunities to students 
nationwide. New competency-based programs award credentials 
based on experience and knowledge, instead of how much time 
students have spent in a classroom.
    These innovative methods of learning stem from the social 
and demographic changes that have fundamentally changed what it 
means to be a quote--``traditional student.'' Institutions are 
actively seeking opportunities to better serve a growing 
population of students who don't fit the usual quote--``first 
time, full time'' mold, including students who are veterans, 
parents who are returning to school, and students who work 
full-time while earning a degree.
    If standards to measure quality continue to be based on so-
called traditional programs and students of the past, those 
institutions working diligently to innovate and serve the needs 
of today's students, while also seeking opportunities to offer 
more cost effective degree programs, could be at an 
accreditation disadvantage.
    Some higher education leaders have proposed changes to the 
accreditation metrics to ensure institutions that are 
experimenting with new education models such as competency-
based programs or online learning initiatives aren't unfairly 
penalized. The Obama administration jumped into this debate 
earlier this year, suggesting changes to the criteria of 
accrediting agencies use to evaluate colleges and universities 
and setting benchmarks for affordability and student outcomes 
in the 2013 State of the Union blueprint.
    Other experts have proposed larger reforms, including 
taking accreditors out of the process of determining an 
institution's eligibility for federal financial aid, believing 
that accrediting agencies, which are largely made up of the 
institutions they accredit, have an inherent conflict of 
interest in determining the quality standards institutions must 
meet.
    In the Higher Education Opportunity Act of 2008, 
Republicans authored provisions to make the accreditation 
process and its results public to help students and families 
better evaluate their postsecondary education choices. With the 
upcoming reauthorization of the Higher Education Act, we have 
another chance to explore additional reforms that will 
strengthen the accreditation system while also supporting 
institutional innovation. I look forward to beginning that 
conversation in today's hearing.
    Again I would like to thank our panel for being here today. 
And I now recognize Mr. Hinojosa, the senior Democratic member 
of the subcommittee, for his opening remarks.
    [The statement of Chairwoman Foxx follows:]

         Prepared Statement of Hon. Virginia Foxx, Chairwoman,
        Subcommittee on Higher Education and Workforce Training

    Good morning and welcome to today's hearing. I'd like to start by 
thanking our panel of witnesses for joining us to discuss the 
accreditation process and its role in our nation's higher education 
system.
    Based on an idea of self-regulation, accreditation was originally 
developed to assure and improve excellence in higher education 
programs. When the federal government began investing in higher 
education, accreditation took on another role by ensuring that the gate 
to federal funds is open only to quality academic institutions.
    Today the federal government, states, and accrediting agencies--
known collectively as ``the triad''--work together to determine which 
institutions are eligible to participate in federal student aid 
programs. Accrediting agencies are given a great amount of authority in 
the process, establishing standards and conducting peer review 
evaluations of postsecondary institutions.
    By design, assessing program quality is meant to be a non-
governmental process. Entrusting independent bodies--not the Department 
of Education or Congress--with this responsibility has preserved 
institutional autonomy and academic freedom within our higher education 
system. This framework has helped to maintain a crucial balance between 
flexibility for institutions and accountability for students and 
taxpayers.
    However, as our higher education system adapts to embrace 21st 
century technologies and changing student demographics, we must now 
explore whether the accreditation system is also due for reforms.
    Advances in technology have introduced new programs, platforms, and 
environments for learning into the higher education community. Massive 
open online courses have modernized instructional delivery by providing 
a wide variety of postsecondary courses and degree opportunities to 
students nationwide. New competency-based programs award credentials 
based on experience and knowledge, instead of how much time students 
have spent in a classroom.
    These innovative methods of learning stem from the social and 
demographic changes that have fundamentally changed what it means to be 
a ``traditional student.'' Institutions are actively seeking 
opportunities to better serve a growing population of students who 
don't fit the usual ``first time, full time'' mold, including students 
who are veterans, parents who are returning to school, and students who 
work full-time while earning a degree.
    If standards to measure quality continue to be based on so-called 
``traditional'' programs and students of the past, those institutions 
working diligently to innovate and serve the needs of today's 
students--while also seeking opportunities to offer more cost-effective 
degree programs--could be at an accreditation disadvantage.
    Some higher education leaders have proposed changes to the 
accreditation metrics to ensure institutions that are experimenting 
with new education models such as competency-based programs or online 
learning initiatives aren't unfairly penalized. The Obama 
administration jumped into this debate earlier this year, suggesting 
changes to the criteria accrediting agencies use to evaluate colleges 
and universities and setting benchmarks for affordability and student 
outcomes in the 2013 State of the Union blueprint.
    Other experts have proposed larger reforms, including taking 
accreditors out of the process of determining an institution's 
eligibility for federal financial aid, believing that accrediting 
agencies--which are largely made up of the institutions they accredit--
have an inherent conflict of interest in determining the quality 
standards institutions must meet.
    In the Higher Education Opportunity Act of 2008, Republicans 
authored provisions to make the accreditation process and its results 
public to help students and families better evaluate their 
postsecondary education choices. With the upcoming reauthorization of 
the Higher Education Act, we have another chance to explore additional 
reforms that will strengthen the accreditation system while also 
supporting institutional innovation. I look forward to beginning that 
conversation in today's hearing.
    Again, I'd like to thank our panel for being here today and I will 
now recognize Mr. Hinojosa, the senior Democratic member of the 
subcommittee, for his opening remarks.
                                 ______
                                 
    Mr. Hinojosa. Thank you, Chairwoman Foxx.
    Good morning, everyone.
    I want thank our panel of distinguished witnesses for 
joining us for the committee's discussion on the role of 
accreditation and its relationship to program quality, 
accountability, and affordability in higher education.
    As Congress works to reauthorize the Higher Education Act 
in a bipartisan manner, Congress must ensure that the 
accreditation process provides for high quality education 
programs that are worthy of student and taxpayer investment and 
lead to good family-sustaining jobs and careers.
    Under current law, Title IV of the Higher Education Act, 
better known as HEA, authorizes the federal student aid 
programs and establishes a regulatory structure that includes 
three actors. Number one is the U.S. Department of Education; 
number two is the states; and number three is the accrediting 
agencies, better known as ``the Triad.''
    The Higher Education Act recognizes the critical role that 
these actors play in providing a framework for shared 
responsibility and for ensuring that the gate to student 
financial aid programs opens only to those institutions that 
provide students with a high quality education.
    While I agree that the federal government should not 
interfere in the operations, the curriculum, and the 
instruction of postsecondary institutions, I do believe that 
accrediting bodies and states must do a better job of enforcing 
minimum standards for program quality. Students, taxpayers, and 
the federal government must have a return on their investment.
    Without a doubt, strengthening the accreditation process 
should involve increasing accountability. Accreditors should be 
empowered to institute a greater array of oversight and 
accountability tools to more closely monitor problematic 
institutions.
    Finally, we should take care to consider learning wherever 
it occurs, even beyond the walls of traditional colleges. This 
committee should consider changes to the accreditation system 
that would enhance program quality; that would promote 
innovation; incentivize states and institutions to make college 
more affordable; and finally, increase student outcomes.
    If the current system cannot accomplish that goal, we 
should consider establishing new gatekeepers that could help 
the Department of Education evaluate learning quality provided 
by education entities.
    To be clear it seems to me a renewed emphasis on program 
quality should not stifle innovation. As you panelists know, 
some alternative learning models, including some of the 
massive, open, on-line courses are nonprofits. Because these 
alternative learning models are not institutions of higher 
learning, they are not eligible for Title IV funds.
    An alternative accreditation model could serve to recognize 
high quality, on-line courses and degree programs to expand 
access to higher education for millions of students. With this 
in mind, I applaud the Secretary of Education, Arne Duncan and 
Under Secretary Martha Kanter for encouraging accrediting 
agencies and states to engage in a robust conversation about 
quality, innovation, and affordability in higher ed.
    The reauthorization of HEA is an opportunity for us in 
Congress to discuss ways in which we can strengthen our current 
accreditation system, and I look forward to hearing from our 
experts on these vitally important issues.
    Thank you, and I yield back.
    [The statement of Mr. Hinojosa follows:]

       Prepared Statement of Hon. Ruben Hinojosa, Ranking Member,
        Subcommittee on Higher Education and Workforce Training

    Thank you, Chairwoman Foxx. Good morning! I want to thank our panel 
of distinguished witnesses for joining us for the committee's 
discussion on the role of accreditation and its relationship to program 
quality, accountability and affordability in higher education.
    As Congress works to reauthorize the Higher Education Act in a 
bipartisan manner, Congress must ensure that the accreditation process 
provides for high quality education programs that are worthy of student 
and taxpayer investment and lead to good family-sustaining jobs and 
careers.
    Under current law, title IV of the Higher Education Act (HEA) 
authorizes the federal student aid programs and establishes a 
regulatory structure that includes three actors: the U.S. Department of 
Education, the states, and the accrediting agencies, known as ``the 
Triad.''
    The Higher Education Act recognizes the critical role that these 
actors play in providing a framework for shared responsibility and for 
ensuring that the ``gate'' to student financial aid programs opens only 
to those institutions that provide students with a high quality 
education.
    While I agree that the federal government should not interfere in 
the operations, curriculum, and instruction of postsecondary 
institutions, I do believe that accrediting bodies and states must do a 
better job of enforcing minimum standards for program quality. 
Students, taxpayers, and the federal government must have a return on 
their investment.
    Without a doubt, strengthening the accreditation process should 
involve increasing accountability. Accreditors should be empowered to 
institute a greater array of oversight and accountability tools to more 
closely monitor problematic institutions.
    Finally, we should take care to consider learning wherever it 
occurs, even beyond the walls of traditional colleges. This committee 
should consider changes to the accreditation system that would enhance 
program quality; promote innovation; incentivize states and 
institutions to make college more affordable; and increase student 
outcomes.
    If the current system cannot accomplish that goal, we should 
consider establishing new gatekeepers that could help the department of 
education evaluate learning quality provided by education entities.
    To be clear, a renewed emphasis on program quality should not 
stifle innovation. As you know, some alternative learning models, 
including some of the massive open on-line courses (MOOCs) are 
nonprofits. Because these alternative learning models are not 
institutions of higher learning, they are not eligible for Title IV 
funds.
    An alternative accreditation model could serve to recognize high 
quality on-line courses and degree programs to expand access to higher 
education for millions of students. With this in mind, I applaud the 
Secretary of Education Arne Duncan and Under Secretary Martha Kanter 
for encouraging accrediting agencies and states to engage in a robust 
conversation about quality, innovation, and affordability in higher 
education.
    The reauthorization of HEA is an opportunity to discuss ways in 
which we can strengthen our current accreditation system, and I look 
forward to hearing from our experts on these vitally important issues. 
Thank you.
                                 ______
                                 
    Chairwoman Foxx. Thank you Mr. Hinojosa.
    Pursuant to committee rule 7(c), all subcommittee members 
will be permitted to submit written statements to be included 
in the permanent hearing record. Without objection, the hearing 
record will remain open for 14 days to allow statements, 
questions for the record, and other extraneous material 
referenced during the hearing to be submitted in the official 
hearing record.
    It is now my pleasure to introduce our distinguished panel 
of witnesses.
    Dr. Elizabeth Sibolski is currently the president of the 
Middle States Commission on Higher Education. Prior to joining 
MSCHE, she was director of University Planning and Research at 
American University in Washington, D.C.
    Dr. Michale McComis serves as the executive director and 
chief executive officer of the Accrediting Commission of Career 
Schools and Colleges, managing the organization's day-to-day 
operations and overseeing the accreditation process for 750 
postsecondary career-oriented vocational education 
institutions.
    Ms. Anne Neal is the cofounder of the American Council of 
Trustees and Alumni, and has been president since 2003. Prior 
to joining ACTA, Ms. Neal served as general counsel and 
congressional liaison for the National Endowment for the 
Humanities.
    Mr. Kevin Carey currently serves as the director of the 
Education Policy Program at the New America Foundation. Prior 
to joining New America, Mr. Carey worked as a policy director 
of Education Sector and as an analyst at the Education Trust 
and the Center on Budget and Policy Priorities.
    Before I recognize you to provide your testimony let me 
briefly explain our lighting system. You will have 5 minutes to 
present your testimony. When you begin, the light in front you 
will turn green. When 1 minute is left the light will turn 
yellow. When the time is expired the light will turn red. At 
that point, I ask that you wrap up your remarks as best as you 
are able. After you have testified, members will each have 5 
minutes to ask questions of the panel.
    I now recognize Dr. Elizabeth Sibolski for 5 minutes.

   STATEMENT OF DR. ELIZABETH H. SIBOLSKI, PRESIDENT, MIDDLE 
             STATES COMMISSION ON HIGHER EDUCATION

    Ms. Sibolski. Madam Chair and members of the subcommittee, 
thank you for the opportunity to testify this morning on the 
role regional accreditors play in ensuring quality in our 
nation's system of higher education.
    For 4 years I have served as the president of the Middle 
States Commission on Higher Education, and I am also serving as 
the current chair of the Council of Regional Accrediting 
Commissions.
    All of the regional accrediting agencies are private, 
voluntary, nongovernmental, membership associations that 
define, maintain, and promote educational excellence and 
improvement.
    MSCHE is one of seven commissions across six regions. Each 
region employs a modest staff to oversee the work of the 
commission while over 3,500 volunteers carry out the actual 
work of accreditation.
    Collectively, the seven regional commissions accredit over 
3,000 highly diverse institutions. Almost all of these rely on 
accreditation for eligibility to participate in federal student 
financial aid programs.
    Each regional creditor must be recognized by the U.S. 
Secretary of Education as a reliable authority on the quality 
of education through a process which involves review by the 
National Advisory Committee on Institutional Quality and 
Integrity.
    Under the U.S. DOE's guidelines for preparing and reviewing 
petitions and compliance reports, we regional accreditors and 
in fact all accreditors, are subject to roughly 100 separate 
requirements as part of the recognition process.
    Each regional accreditor uses similar processes for 
initially accrediting institutions. Once accredited, 
institutions are monitored to ensure ongoing compliance and are 
re-reviewed for reaffirmation of accreditation.
    In cases where an institution is not meeting standards, 
action is taken and the institutions are required to return to 
compliance with those standards.
    Today, accreditation is very different from what it was a 
few years ago. Regional accreditors are working with 
institutions to facilitate approval of innovative offerings 
that would increase access and affordability.
    At MSCHE, we are in discussions with institutions that are 
eager to explore approval for competency-based direct 
assessment programs. This past year NEASC approved what is 
widely viewed to be a landmark direct assessment program at 
Southern New Hampshire University and other regions are 
similarly engaged.
    Commissions are doing more to streamline their own 
accreditation processes. The Higher Learning Commission is 
transitioning one of its current programs into two new 
pathways.
    The Northwest Commission recently updated their process 
making it more strategic, analytical, and outcomes based. We 
have reacted to the demand for increased transparency as well. 
MSCHE posts significant information about areas of required 
follow up with our institutions on our website.
    Both WASC commissions have expanded the information 
available on-line including team reports and beginning this 
month SACS will initiate a process of posting a form of 
disclosure for all institutions following their reaffirmation.
    We recognize the demand for more information about student 
achievement. NEASC has been working to expand availability of 
data on retention and graduation rates.
    WASC/ACCJC is now asking institutions to report annually on 
institution level, student achievement, and outcomes data while 
WASC Senior has a new process to evaluate retention and 
graduation data.
    Our regional agencies face numerous challenges though. For 
example, how do we expedite the accreditation process while 
remaining thorough and careful in what we do? How can we move 
to quickly sanction an institution that is substandard while 
still providing the necessary due process protections? How 
should we balance the competing needs for thorough review, with 
review that is cost-effective and timely?
    Congress can play a key role in helping us address some of 
these challenges. For example, our efforts to promote 
innovative practices would be enhanced if the Higher Education 
Act explicitly allowed accreditors to develop demonstration or 
pilot programs.
    We also urge the administration to rethink the steady 
stream of new regulations such as those focusing on state 
authorization. These regulations often present significant 
burdens for institutions and accreditors alike, without 
producing significant new benefits.
    Accreditation is far from perfect and there is always room 
for improvement. However, if there is a single message I would 
leave today, it is that academic communities continue to 
provide the most effective way to evaluate quality in higher 
education today.
    Thank you.
    [The statement of Ms. Sibolski follows:]

      Prepared Statement of Dr. Elizabeth H. Sibolski, President,
              Middle States Commission on Higher Education

    Good morning Mrs. Chairwoman, Mr. Ranking Member and Members of the 
Subcommittee. Thank you for this opportunity to testify today on the 
important role regional accreditors play in ensuring quality in our 
nation's system of higher education.
    For the past four years, I have served as the President of the 
Middle States Commission on Higher Education, where I spent the prior 
nine years in a variety of other positions. I am also the current Chair 
of the Council of Regional Accrediting Commissions, which coordinates 
and advocates on behalf of regional accrediting commissions.
    Reflecting my own experience and background with MSCHE as well as 
the broader perspective of regional accreditors collectively, I will 
focus my testimony today on four key areas. Specifically, the structure 
of regional accreditation; the process used by accreditors in 
recognizing institutions; recent ways in which regional accreditation 
has responded to the changing landscape of higher education; and 
finally, an overview of some of the key challenges facing regional 
accreditors.
    I would like to begin by explaining the value of accreditation. 
Simply put, accreditation is the way in which colleges and universities 
give the public confidence that they provide a quality education. It is 
for this reason accreditation is used by the federal government as a 
key requirement for participation in federal student aid programs; 
employers use accreditation for evaluating the education credentials of 
prospective employees and for decisions regarding tuition reimbursement 
programs; and colleges and universities use accreditation as a means 
for determining the quality of other institutions for purposes of 
determining transfer-of-credit policies.
    Just as important is the fact that accreditation is a critical tool 
used by colleges, universities, and other institutions of higher 
education to sustain and strengthen their quality as part of a process 
of continuous improvement. Institutional improvement has been a core 
aspect of regional accreditation since its founding a century ago.
Structure
    The Middle States Commission on Higher Education (MSCHE), as with 
each regional accreditor, is a private, voluntary, non-governmental, 
membership association that defines, maintains, and promotes 
educational excellence and improvement. Regional accreditors accredit 
entire institutions, not individual programs, units, or locations. 
Regional accreditors also require that undergraduate programs (if the 
institution offers any) include a significant general education or 
liberal studies component.
    MSCHE is one of seven Commissions across six regions. The Western 
Association of Schools and Colleges is unique in that it maintains 
separate commissions for senior and junior colleges.
    A professional staff oversees each Commission while over 3,500 
volunteers carry out the work of accreditation by serving on visiting 
teams and on commissions. These volunteers include college and 
university presidents, academic officers, faculty, and campus experts 
in finance, student services and library/technology. At least one of 
every seven Commissioners is required to be a public member, although 
some Commissions have a higher ratio of public members and find they 
provide valuable insight into ensuring that accreditation is relevant.
    Collectively the seven Regional Commissions accredit over 3,000 
institutions, which include public, private non-profit, and private 
for-profit entities. The range of institutions in each region includes, 
but is not limited to, community colleges, liberal arts colleges, 
special-purpose institutions such as seminaries and medical schools, 
research universities, and institutions with on-line programs serving 
every state of the nation. These institutions have diverse missions, 
student populations, and resources and enroll over 17 million students 
in programs ranging from associates through doctoral degrees
    Each regional accreditor must be recognized by the U.S. Secretary 
of Education as a reliable authority on the quality of education and 
training provided by the institutions of higher education that it 
accredits. Acquiring this recognition involves each agency undergoing a 
review by U.S. Department of Education staff, which provides 
recommendations to the National Advisory Committee on Institutional 
Quality and Integrity (NACIQI)--a committee with Members appointed by 
Congress and the U.S. Secretary of Education. Accreditors must also 
appear before NACIQI, which in turn advises the Secretary regarding 
recognition.
    Recognition is based upon criteria set forth under the Higher 
Education Act (HEA) and through significant regulations. In fact, under 
the USDOE's Guidelines for Preparing/Reviewing Petitions and Compliance 
Reports, we are subject to roughly 100 separate requirements as part of 
the recognition process. Among these criteria is the requirement that 
accreditors maintain certain standards that must be used in quality 
reviews. In particular, accreditors must ensure they have standards 
that assess an institution's success with respect to student 
achievement in relation to the institution's mission, curricula, 
faculty, facility, equipment and supplies, fiscal and administrative 
capacity, student support services, recruiting and admission practices, 
measure of program length, and record of student complaints, as well as 
record of compliance with its program responsibility under Title IV of 
HEA. All institutions--public, private not-for-profit, private for-
profit--are evaluated using standards that are generally the same.
    For an institution, accreditation by an agency recognized by the 
Secretary provides an assurance of education quality and is necessary 
in order to participate in federal student financial aid programs. 
However, the Department of Education and individual states also have 
distinct roles in ensuring quality in higher education. Under this 
``Triad'' as it is referred to, states ensure a process for addressing 
consumer complaints and the federal government oversees financial 
responsibility and administrative capability of institutions.
Process
    Within this overall structure, each regional accreditor uses a 
similar process for accrediting institutions. The MSCHE's process 
includes several distinct steps, which can take several years to fully 
complete, reflecting the need for regional accreditors to hold true to 
their obligation to serve as a reliable authority of quality. These 
steps toward initial accreditation include:
            Deciding whether to apply and whether to make institutional 
                    changes
    This is an initial period of inquiry during which the institution 
has an opportunity to learn about and judge its position relative to 
MSCHE requirements and expectations.
            Submitting an application that demonstrates eligibility for 
                    accreditation
    Demonstration of eligibility for accreditation involves the 
presentation of documentation and analysis showing the institution's 
current or potential compliance with accreditation standards. At this 
stage, MSCHE staff conduct an initial review and determination of the 
institution's capacity to demonstrate sustained compliance.
            Commission staff visit
    The Commission staff visit provides an opportunity to confirm the 
institution's readiness to continue the accreditation process 
successfully and to discuss, with the institution's constituencies, the 
next steps in that process.
            Applicant assessment team visit
    The applicant assessment team visit allows for a validation of the 
information that has been submitted to MSCHE and a determination via 
peer review as to whether the institution is ready to be granted 
candidate-for-accreditation status by the Commission.
            Updated accreditation readiness reports and candidate 
                    progress visits
    These reports and candidate progress visits are employed if the 
Commission does not immediately invite the institution to initiate 
self-study when it grants candidacy. This interim period allows the 
institution time to focus on issues where work may be required to 
ensure sustainable compliance with standards for accreditation.
            Self-study and the evaluation team visit
    The self-study and evaluation team visit are the final steps in 
candidacy wherein the institution prepares its first self-study and 
hosts a full evaluation team visit.
            Becoming accredited
    This is the action taken by the Commission following a successful 
self-study and peer-evaluation process.
    Once accredited, institutions are monitored by the Commission to 
ensure on-going compliance and within the context of reaffirmation of 
accreditation. While there is variation among regional processes, MSCHE 
works within a decennial time frame that includes two main 
accreditation events that result in accreditation decisions in the 
first year and in the fifth year.
    MSCHE uses a three-stage decision-making process both for initial 
accreditation and for reaffirmation of accreditation. In the first 
stage, peer reviewers consider reports and evidence presented by the 
institution and develop an action recommendation. A second-stage review 
happens in one of the Commission's standing committees. This review 
allows for a look across a number of similar reviews and gives us a 
mechanism for considering consistency and fairness in the decisions 
that have been made. Adjustments are possible as the committee then 
makes its action recommendations to the full Commission. The final 
stage of review rests with the full Commission, which can make further 
adjustments in reaching a final accreditation action.
    In addition to these two main accreditation events, MSHCE also 
reviews institutions through annual data submission via an 
Institutional Profile. Through this process, the Commission may 
identify instances where additional follow-up may be necessary.
    In addition, we maintain ongoing contact with our institutions in a 
variety of other ways. This includes receiving from them follow-up 
reports from reviews and substantive change requests related to such 
issues as the addition of new branch campuses or additional teaching 
locations.
    Increasingly, we find the need to work with institutions upon 
learning about significant developments such as new financial issues or 
other matters that have drawn serious attention by media or in cases 
where we learn of complaints or third-party comments about the 
institution.
    It is especially important to emphasize that, in cases where an 
institution is not meeting our standards or is in danger of non-
compliance, as identified as part of a scheduled review or on-going 
monitoring, the Commission takes action requiring the institution to 
report back to us.
    If warranted, a special visit by an evaluation team at the 
institution will be scheduled.
    The team will report back to the Commission, which will then take 
action as may be warranted. The range of actions may include steps 
toward termination of accreditation if necessary. To give you a sense 
of how often we must take such steps, in 2012, 18 percent of our 
institutions were placed on warning following a self-study; 10 percent 
were placed on warning after a periodic review; after follow up, 4 
percent of warnings were continued and 1 percent were placed on 
probation.
    Clearly, terminating accreditation is a last resort and has serious 
implications for institutions and students alike. For this reason we 
devote substantial time and energy in working with institutions from 
the very beginning to help prevent terminations and to identify and 
respond to issues through monitoring and oversight before they result 
in serious problems.
    The accreditation status of an institution--particularly in cases 
where there has been a sanction--is critical information for the public 
and especially students to know and be aware of. For this reason, 
accreditors are also responsible for disclosing the accreditation 
status of reviewed institutions. This responsibility includes providing 
such information as current status, including sanctions imposed and 
reasons for the sanctions and requested monitoring reports. In addition 
to the status being posted on our own websites, this information is 
also provided to the U.S. Secretary of Education and posted on the U.S. 
Department of Education's website.
Accreditation 2.0
    Higher education today is far different than when our Commission 
first began its work nearly 100 years ago. Indeed, the landscape has 
changed dramatically in just the last 10 years, with the explosive 
growth of new modes of delivering education; increased numbers of 
institutions providing services, especially in the for-profit sector; 
and a comparatively large amount of spending on higher education--both 
by the federal government and through family financing.
    This evolution in higher education shows no sign of slowing, as 
evidenced by the advent of Massive Open Online Courses (MOOCs), which 
are driving new pathways and partnerships to a degree I have never seen 
in all of my years in higher education.
    Just as all of higher education is changing, so too is regional 
accreditation. Today, our practices and policies are vastly different 
from what they were a decade or even five years ago. These changes have 
been critical for many reasons, including enabling us to keep up with 
the changing nature of the delivery of education; to maintaining proper 
oversight of increasingly complex fiscal management systems; and to 
meeting a growing demand by policymakers and the public for increased 
transparency and for a focus on outcomes in higher education.
    Below are just a few examples of what regional accreditors are 
doing to meet the new demands in our changing landscape:
            Promoting Innovation in Educational Programs
    Regional accreditors are working with institutions to enable them 
to deliver degrees in ways that increase access and affordability while 
ensuring and improving outcomes. For example:
    <bullet> At MSCHE, we are in discussion with several institutions 
that are eager to explore approval for competency-based/direct 
assessment programs.
    <bullet> Meanwhile, this past year, the New England Association of 
Schools and Colleges (NEASC) approved what is widely viewed as a 
landmark program at Southern New Hampshire University which will 
provide access to federal financial aid for a degree program offered 
without credits or semester terms--a so-called ``direct assessment'' 
program--making these programs more accessible, affordable and focused 
on outcomes. That program has now been approved by the U.S. Department 
of Education for participation in federal financial aid programs.
    <bullet> NEASC is also focusing on the role of accreditation in 
considering ``credits from elsewhere''--credits that students bring 
with them or credits that institutions recognize or validate for non-
collegiate study. This will lead to a discussion of the institution's 
responsibility to assure the quality of anything for which it awards, 
recognizes or accepts credits (e.g., Straighter Line, MOOCs, 
competencies, prior learning assessments).
    <bullet> The Higher Learning Commission (HLC), which accredits 
institutions throughout the Midwest and as far west as Arizona, has 
moved forward with a pilot program to enable institutions to authorize 
the offering of competency-based programs as a means of reducing the 
time required to complete a degree and the cost.
    <bullet> The Southern Association of Colleges and Schools (SACS) 
recently received its first proposal for a competency-based program, 
and will be convening a task force to examine the relevant issues in 
more detail.
            Streamlining the Accreditation Process
    As accreditors, we recognize that certain aspects of the 
accreditation process have historically been viewed as over-burdensome 
and costly--both financially and in terms of staff time and effort. 
While the level of burden is in part due to federal laws and 
regulations, more is being done to streamline the accreditation process 
and improve the benefits to institutions:
    <bullet> At MSCHE, we are renewing our accreditation process, 
including looking at ways to change aspects of our 5th-year reporting 
in order to streamline that activity.
    <bullet> The Higher Learning Commission (HLC) is in the process of 
transitioning one of its current programs for maintaining accreditation 
into two new Pathways--the Standard Pathway and the Open Pathway--both 
of which would reduce the reporting burden on institutions by 
collecting as much information and data as possible from existing 
institutional processes and in electronic form as they naturally occur 
over time.
    <bullet> The Northwest Commission on Colleges and Universities 
(NWCCU) has shortened its accreditation cycle from ten years to seven 
years. The foci and requirements of the Commission's new accreditation 
reports streamline the process without compromising the rigor or value 
to institutions and the Commission. The process is more strategic, 
analytical, and outcomes-based and is driven by an institution's own 
stated mission, core themes, and objectives.
            Increasing the Transparency of the Accreditation Process
    We believe it is critical for students to understand the 
accreditation status of the institution they attend or are considering 
attending. However, there has been a growing demand for more 
information going beyond just the current accreditation status of an 
institution, and the regional accreditors have reacted by developing 
new ways in which to increase transparency.
    <bullet> For example, MSCHE posts a significant amount of 
information on our website about the specific areas where individual 
institutions have required follow-up.
    <bullet> The Accrediting Commission for Community and Junior 
Colleges (WASC/ACCJC) now requires all member institutions to post 
their self-evaluation report, the evaluation team report, and any 
Commission action letters online.
    <bullet> The Western Association Schools and Colleges Accreditation 
Accrediting Commission for Senior Colleges and Universities (``WASC 
Senior'') has, since last year, posted all team reports and Commission 
action letters on its website, and the postings also include a link to 
any institutional response.
    <bullet> Beginning this month, SACS will initiate a process of 
posting a form of disclosure for all institutions following their 
reaffirmation actions which will include areas of continued monitoring 
if applicable.
            Enhancing Focus on Student Outcomes
    Assessing student outcomes is central to the work of accreditors. 
In addition, we also recognize the growing demand on the part of 
policymakers, students, and the public for more information about the 
extent to which individual institutions are successful in such areas as 
retention and graduation. In just the last few years, regional 
accreditors have devoted a significant amount of time and effort to 
this issue, including:
    <bullet> At MSCHE, I have seen an increased demand on the part of 
our institutions for assistance with more sophisticated ways to improve 
student learning outcomes assessments, and we have met this demand 
through an extensive schedule of workshops.
    <bullet> NWCCU has developed a new accreditation model that is 
outcomes-based and emphasizes outcomes in the Year One, Year Three and 
Year Seven Reports and evaluations.
    <bullet> Since 2011, NEASC has required institutions to discuss 
``what students have gained as a result of their education'' as part of 
their fifth-year interim report. In addition, institutions must report 
(in both the comprehensive evaluation and the fifth-year interim 
report) retention and graduation rates, licensure passage rates, and 
the rates at which students go on to higher degrees.
    <bullet> For the past five years, many NEASC institutions have 
agreed to display retention and graduation rates for part-time 
students, transfers and on-line students. This goes beyond the 
information on first-time, full-time students currently collected by 
the Integrated Postsecondary Education Data System (IPEDS). This month 
NEASC is convening a meeting to develop consensus on what retention and 
graduation rates are most useful for non-first-time-full-time students.
    <bullet> WASC/ACCJC is now asking institutions to report annually 
on institution-level student achievement data and student learning 
outcomes data, and is monitoring this information, which comes from the 
institutions' annual reports.
    <bullet> WASC Senior has undertaken several initiatives focused on 
outcomes and quality. Included among these initiatives is a new process 
to evaluate retention and graduation data, going beyond the first-time, 
full-time data. WASC is also requiring all institutions to address the 
meaning, quality, and integrity of their degrees so as to ensure that 
they are coherent and are supported by effective quality assurance 
processes. In addition, institutions awarding undergraduate degrees 
will be expected to demonstrate, using their own approaches, graduation 
proficiencies in the major and in at least five key areas: written 
communication, oral communication, critical thinking, quantitative 
reasoning, and information literacy.
            Improving On-going Monitoring of Institutions
    While ongoing monitoring has always been a component of 
accreditation, as I have outlined above, the increased complexity of 
higher education--particularly related to financial information--has 
demanded we do more.
    <bullet> Our Commission has expanded its fiscal monitoring of all 
member institutions. Each year, financial data and audited financial 
statements are collected and analyzed using ratios, some of which were 
developed by KPMG. In cases where the analysis reveals a concern, the 
Commission reaches out to the institution for additional information 
that may subsequently, depending on the situation, be considered by the 
Commission or one of its committees.
    <bullet> WASC Senior has begun using specially trained finance 
teams who review audits and financial ratios every three years to 
identify financial issues, in addition to conducting annual reviews of 
institutional audits.
    The examples I have just outlined point out the significant work 
regional accreditors are doing to respond to the changing landscape of 
higher education. However, these examples also point out the value of 
the ``regions'' being able to test new approaches and to build upon the 
best practices developed elsewhere.
Challenges
    While MSCHE and other regional accreditors have been working hard 
to improve accreditation, it is worth noting a few key areas that are 
illustrative of the challenges we face.
            Explaining Accreditation as it Exists Today
    Higher education accreditation is a complex undertaking that has 
evolved significantly, especially during the past decade. This 
testimony has included descriptions of some of the ways that regional 
accreditors have embraced change. We don't often have an opportunity to 
discuss this aspect of our work, and it is difficult to summarize in a 
few words or phrases. Continuing to spread the word about what 
accreditation is and what it does best represents a serious challenge. 
If there is a single message in this regard that I would leave you with 
today, it is that academic communities--through the vehicle of non-
governmental, voluntary peer/membership-based accrediting agencies--
continue to provide the most effective way to evaluate quality and 
effectiveness in higher education.
            Addressing Dilemmas in Accreditation
    Regional accrediting agencies face numerous dilemmas in the current 
environment. How can we expedite accreditation activity while remaining 
thorough and careful in what we do? How can we move to quickly sanction 
a substandard institution while still providing appropriate due-process 
protections? How should we balance the competing needs for thorough 
review and review that is cost-effective? How should we best promote 
the use of data and evidence in self-study and review without relying 
on the wrong metrics, becoming too prescriptive, or stifling creativity 
and diversity? MSCHE and the other regional commissions are well aware 
of issues like these. Addressing them appropriately represents a 
continuing challenge.
            Safe Space for Innovation within Accreditation
    This country's higher education community stands at a crossroads 
where such issues as cost, value, and access must be and are being 
addressed in a variety of ways. Innovations in technology and delivery 
are changing the face of higher education, yet it is often difficult 
for accreditors to allow innovative practices and at the same time 
remain within the boundaries of federal regulations. This challenge 
might be addressed by explicitly allowing accreditors to develop 
demonstration or pilot programs that would not put recognition of the 
agency in jeopardy.
            Regulations
    While a certain level of regulation of accreditors is 
understandable given our role as ``Title IV gatekeepers,'' we have 
become increasingly concerned with the steady flow of increased 
regulations that often seems to approach constant regulatory change. 
New regulations, such as those focusing on defining ``credit hour'' and 
involving new rules on ``state authorization,'' have created 
significant burdens and challenges for institutions and accreditors 
alike while at the same time providing questionable real benefits for 
students and the public at large.
            Effective Collaboration
    The Department, regional and specialized accrediting agencies, and 
state governments all have roles in reviewing and recognizing 
institutions of higher learning. Understanding separate roles and 
finding appropriate pathways for communicating and sharing information 
are especially important in this time of transition. However, 
sustaining collaborative relationships is a challenge and does not 
always happen.
Conclusion
    I have spent most of this testimony explaining what accreditation 
is, how it works, and the many ways in which we are striving to 
improve. However, accreditation is far from perfect, and there is 
always room for improvement. As this Subcommittee moves forward with 
efforts to reauthorize the Higher Education Act, we welcome the 
opportunity to work with you on ways not only to improve accreditation 
but to ensure that our system of higher education in this nation 
remains second to none.
                                 ______
                                 
    Chairwoman Foxx. Thank you, I now recognize Dr. Michale 
McComis for 5 minutes.

     STATEMENT OF DR. MICHALE McCOMIS, EXECUTIVE DIRECTOR, 
     ACCREDITING COMMISSION OF CAREER SCHOOLS AND COLLEGES

    Mr. McComis. Good morning.
    Madam Chair and members of the subcommittee, my name is Dr. 
Michale McComis, and I am the executive director of the 
Accrediting Commission of Career Schools and Colleges, ACCSC, a 
private, nonprofit, independent, national accrediting agency 
recognized by the United States Secretary of Education.
    I am honored to appear before the subcommittee this morning 
to discuss accreditation; the contribution that it makes to the 
quality of education in this country.
    Accreditation has been relied upon for educational quality 
assessment purposes by the federal government for 6 decades. 
Although accreditation has come under increased scrutiny by 
policymakers, accreditation can and should continue to serve in 
his gatekeeping capacity albeit in a strengthened form.
    Accreditation employs an earnest and collaborative approach 
within a peer-reviewed network that identifies best practices 
and assesses how well an institution meets those best practice 
standards. It is not nor can it be a one-size-fits-all system 
with rudimentary metrics that do not take into account 
subjective and qualitative elements of an institution's 
operations and success.
    Accreditation derives its strength from four essential 
pillars that are built upon a foundation of peer review. Those 
pillars are one, standards or best practices; two, self-
evaluation; three, ongoing institutional improvement; and four, 
accountability.
    The success of any accrediting agency is based upon the 
strength of each of these fundamental pillars in the agency's 
system of accreditation and the strength of the peer review 
foundation.
    Accreditation also takes different forms and serves a 
myriad of institutions and as such, institutions will be 
accredited by agencies with different standards and different 
expectations of learning and outcomes. This is both appropriate 
and necessary and through this lens the differences amongst 
accreditors should be viewed as a strength to our system.
    I recognize that Congress has a vested interest in ensuring 
the strength of accrediting agencies. As such, the Congress 
should seek to make changes to the Higher Education Act that 
will provide such assurances, strengthen accreditation, but 
without injecting undue federal intrusion into the academic 
processes of higher education or that might serve as a barrier 
to innovation.
    Judgments regarding the effectiveness of accreditation 
should not lose sight of the fact that the oversight of higher 
ed is a shared responsibility amongst accreditors, states, and 
the federal government.
    Triad partners working together strengthens the existing 
oversight system and retains the positive qualities of 
accreditation and the expertise that peer review represents and 
delivers.
    So then, how can accreditation be strengthened through the 
Higher Education Act? The following are some suggestions for 
the subcommittee to consider.
    Outcomes. Outcomes measures are not a one-size-fits-all 
solution and should not be mandated by the Congress or the U.S. 
Department of Education. However, accreditors working with 
their accredited institutions must define the right set of 
measures and metrics to evaluate institutional and student 
success and hold those institutions accountable to those 
outcomes.
    Transparency. Accreditors should be required to provide 
useful disclosures, responsible disclosures, of the 
accreditation actions taken that can help the general public 
make informed decisions about the quality of an institution or 
program.
    Credit hour definition. The complex federal definition of a 
credit hour should be removed from current regulations and an 
accreditor should be required to define the elements of a 
program that go into quality assessment paradigms.
    Accreditation area of focus. It may be useful to require 
accreditors to focus narrowly on the types of institutions 
accredited in order to ensure strong peer-review foundation and 
solid measures related to outcomes and accountability.
    Transfer of credit. Accreditors should be required to have 
and enforce standards that prevent institutions from unfairly 
or unjustifiably denying credit transfer.
    Changing accreditors. Institutions that have been subject 
to a monitoring sanction from one accreditor should not be 
allowed for federal financial aid purposes to seek a new 
accreditor for some set period of time after the sanction has 
been lifted.
    Other areas for the subcommittee to consider have been 
included in my written testimony, including the appeals process 
and strengthening substantive change requirements.
    I hope the subcommittee finds these recommendations useful 
as it goes about its work, and I am happy to provide additional 
details regarding each.
    As the executive director of a national accrediting agency, 
I am keenly aware of the important role that accreditation 
plays as a gatekeeping entity in the Triad, and that questions 
remain regarding accreditation's effectiveness.
    To that end, I look forward to the continuing dialogue on 
ways to strengthen accreditation as a means to ensure that it 
continues to fulfill its role as gatekeeper to the Title IV 
federal student financial aid programs.
    Thank you again for the opportunity to testify before the 
subcommittee, and I stand ready to answer any questions you may 
have.
    [The statement of Mr. McComis follows:]

   Prepared Statement of Dr. Michale S. McComis, Executive Director, 
     Accrediting Commission of Career Schools and Colleges (ACCSC)

    Madame Chair and members of the Subcommittee, my name is Dr. 
Michale McComis and I am the Executive Director of the Accrediting 
Commission of Career Schools and Colleges (ACCSC), a private, non-
profit independent national accrediting agency recognized by the United 
States Secretary of Education. ACCSC accredits over 730 postsecondary, 
career- and vocational education-oriented institutions that serve 
225,000 students throughout the United States. I am honored to appear 
before the Committee this morning to discuss accreditation and the 
contributions that it makes to the quality of education in this 
country.
    Accreditation as an education quality assessment mechanism has been 
the hallmark of educational success in this country for over a century 
and relied upon by the federal government for this purpose for six 
decades. Although accreditation has come under increased scrutiny by 
policy makers, accreditation can and should continue to serve in its 
gate-keeping capacity, albeit in an enhanced form which I will describe 
later in my testimony. Accreditation employs an earnest and 
collaborative approach within a peer-review network that identifies 
best practices and assesses how well an institution meets those best 
practice standards. It is not, nor can it be, a one-size-fits-all 
system with rudimentary metrics that do not take into account 
subjective and qualitative elements of an institution's operations.
    Accreditation has four essential pillars that are built upon a 
foundation of peer review. Those pillars are: 1) standards or best 
practices, 2) self-evaluation and assessment, 3) on-going institutional 
assessment and improvement, and 4) accountability.
    1. Standards: Through peer review, best practices are established 
and mandated;
    2. Self-evaluation: Institutions are evaluated internally and 
externally and assessed as to how well they meet standards and can 
demonstrate success through student outcomes;
    3. On-going Institutional Assessment and Improvement: Expectations 
of significant and on-going institutional assessment and improvement 
are established; and
    4. Accountability: Institutions are held accountable for compliance 
with standards and outcomes--to include the loss of accreditation--when 
expectations are not met.
    Accreditation also takes different forms and serves many different 
kinds of institutions. National accreditors, such as the agency I 
represent, primarily accredit institutions that offer an array of 
career- and vocationally-oriented programs that are mainly non-degree 
and sub-baccalaureate degree with some baccalaureate, master's and 
doctoral degree programs. Regional accreditors, on the other hand, 
primarily accredit community colleges, 2 and 4 year colleges, and 
universities that offer degree programs in in an array of liberal arts 
and professional fields as well as some non-degree and degree programs 
in vocational fields. Given the wide variety of accredited 
institutions, it follows that institutions will be accredited by 
different types of accrediting agencies with different standards and 
different expectations of learning and outcomes. This is both 
appropriate and necessary. However, the differences among accreditors 
and the types of institutions they accredited do not make one type of 
accreditation ``better'' than another--the success of any accreditation 
agency is not based on the type of institution accredited but upon the 
strength of each of the fundamental pillars in the agency's system and 
the strength of the peer review foundation. All accreditors, regional 
or national, and regardless of the types of institutions accredited, 
should enforce an accountability-based model that combines rigorous 
input standards with performance outcomes in categories such as student 
learning, student assessment, and student achievement.
    I recognize that the expectations of accreditors by the federal 
government are changing, such that accreditors are subject to far 
greater federal oversight than at any time in the past. Congress has a 
vested interest in ensuring that the strength of any accrediting agency 
is at an appropriate level before that agency may be recognized as a 
gatekeeper to Title IV funds. As such, the Congress should seek to 
enact changes to the Higher Education Act that will responsibly and 
appropriately provide such assurance; however, this should be done 
without injecting undue and inappropriate federal intrusion into the 
academic processes of higher education.
    The President has stated that he will call on Congress to 
``consider value, affordability, and student outcomes in making 
determinations about which colleges and universities receive access to 
federal student aid, either by incorporating measures of value and 
affordability into the existing accreditation system; or by 
establishing a new, alternative system of accreditation that would 
provide pathways for higher education models and colleges to receive 
federal student aid based on performance and results.'' From my vantage 
point, measures relating to performance and results are present in the 
existing accreditation system, although in a variety of forms and not 
always in easily packaged up or down metrics. However, it is the 
variety of these measures that contribute positively and materially to 
the strength of our decentralized oversight of education in this 
country. Given the President's statement, however, accreditors must do 
better at defining student achievement outcomes with greater 
transparency to show how these measures are applied so that the public 
and policy makers can rely on the results of their evaluation 
processes. Accreditation, as the sector with the principle 
responsibility for quality assurance in higher education, needs to work 
earnestly toward moving the discussion of quality through accreditation 
from skepticism to confidence.
    My sincere hope is that any judgment regarding the effectiveness of 
accreditation not lose sight of the fact that the oversight of higher 
education, as set forth in current law and regulation, is a shared 
responsibility. Each member of the regulatory triad--state government, 
accreditor, and federal government--has an essential role to play in 
the oversight of institutions. In this regard, the Subcommittee should 
consider several of the recommendations made by the National Advisory 
Committee for Institutional Quality and Integrity (NACIQI) in its April 
2012 Report, including the need to clarify and to articulate common 
understandings about the responsibilities of each member of the triad, 
and foster increased communication among triad actors to achieve 
greater commonality across the quality assurance/eligibility 
enterprise. By continuing to work together in partnership with the 
various organizations within the regulatory triad, I believe we can 
strengthen the existing oversight system while retaining the positive 
qualities of accreditation and the expertise and nuance that peer-
review represents and delivers.
    Moreover, for the sake of higher education's advancement, the 
higher education community--including accrediting agencies--must be 
allowed to adapt and innovate in order to accommodate the diversity of 
students, student preferences, and learning. This supports reasons why 
there is not, and should not be, a one-size-fits-all system of 
accreditation. As higher education takes a more diverse shape, 
accrediting agencies and the peer review process should foster avenues 
for institutions to develop and deploy innovative approaches that both 
increase access to higher education and fundamentally change the manner 
in which education is delivered. Ensuring the quality and integrity of 
these programs without undue regulatory burden must also remain a 
paramount concern. The federal definition of a credit hour, however, is 
an example of undue regulatory burden and intrusion into the academic 
process by the federal government that stunts innovation. In my 
experience, competency models of student assessment are superior to 
``seat-time'' models of student fulfillment. But, by creating the 
federal definition of a credit hour, the U.S. Department of Education 
federalized a basic academic concept and developed a complex and 
confusing system that unintentionally serves as a barrier to innovation 
in educational delivery models such as a movement to competency 
assessment. Although the Department's position on ``direct assessment'' 
is a step in the right direction, it coexists in federal regulation 
with the federal definition of a credit hour, which causes uncertainty 
on how to move forward with more innovative models.
    So then, how can accreditation be enhanced through the Higher 
Education Act? The following are some suggestions for the Subcommittee 
to consider:
Macro Areas
    1. Outcomes: Outcomes measures are an important part of the 
assessment paradigm for higher education institutions. But, outcomes 
measures are not a one-size-fits-all solution and should not be 
mandated by Congress or the U.S. Department of Education. Accreditors, 
working with their accredited institutions, must find and define the 
right set of measures and metrics to evaluate institutional and student 
success. While program-level rates of graduation and employment work 
well for the types of institutions accredited by my agency, those same 
measurements may not be as appropriate in other types of institutions. 
Moreover, outcomes measures by themselves are not a panacea and alone 
cannot provide a sole assessment of the quality of an institution or 
its programs. Input standards are an equally important part of the 
assessment paradigm and serve to illustrate why accreditation is an 
important part of the higher education regulatory landscape. Outcomes 
measurements work best when complimented with rigorous input standards 
(e.g., standards pertaining to management and educational 
administration; curriculum design, development, and evaluation; faculty 
qualifications; learning resources; facilities; student services; 
student learning; student assessment; and other areas that contribute 
to quality education programs).
    Generally, outcomes measures should be a reflection of how an 
institution performs relative to standards (i.e., best practices) and 
should minimally require institutions to assess learning and competency 
attainment as well as:
    <bullet> Rates of retention or graduation;
    <bullet> Rates of employment and certification/licensure exam pass 
rates in career and professional programs and measures related to 
``employability'' \1\ in other program areas; and
---------------------------------------------------------------------------
    \1\ By ``employability'' I mean assessments made by graduates and 
employers about how well the graduate was prepared to enter the 
workforce based on the education received. This could serve as an 
appropriate outcomes measure for student pursuing education in many 
liberal arts fields.
---------------------------------------------------------------------------
    <bullet> Measures of student and graduate satisfaction.
    These kinds of outcomes taken together with an assessment of an 
institution's adherence to input standards provide the tools necessary 
to assess quality and value.
    2. Accreditation Area of Focus: It may be useful to require 
accreditors to focus narrowly the types of institutions accredited to 
ensure a strong peer-review foundation. This is known as the ``bucket'' 
approach whereby types of institutions are grouped into buckets with an 
accreditor that is focused on that specific type of institution e.g., 
career- and vocationally-oriented institutions, community colleges, 
liberal arts colleges and universities, research universities, etc. 
This approach may allow for better peer-to-peer evaluation and bring 
about better measures related to outcomes and accountability.
    3. Transparency: Accreditors should provide useful disclosures of 
the accreditation actions taken by the agency that can help the general 
public make informed decisions about an institution or program.
    4. Transfer-of-Credit: Accreditors should have and enforce 
standards that prevent institutions from unfairly or unjustifiably 
denying credit transfer.
    5. Credit Hour Definition and Clock Hour Conversions: Seat-time 
requirements for funding programs do not preserve academic integrity 
nor promote competency assessment and as such the federal definition of 
a credit hour and the complex clock-hour conversion formulas should be 
removed from the federal regulations. If accreditors are going to be 
the purveyors of educational quality assessment, then accreditors 
should be given the discretion necessary to define the elements that go 
into the assessment paradigm.
    6. Changing Accreditors: Institutions that have been subject to a 
monitoring, Show Cause Order, or Probation Order from one accreditor 
should not be allowed, for federal financial aid purposes, to seek a 
new accreditor for some set period of time after the sanction has been 
lifted (e.g., three years).
Micro Areas
    1. Appeals Process: The last reauthorization of the Higher 
Education Act yielded several significant changes to the process that 
accreditors most enact with regard to the appeal of an adverse 
accreditation decision. While I believe the Congress was well 
intentioned, the ensuing regulations have created a far more complex 
and cumbersome process that has not, in my experience, yielded greater 
due process for institutions. I suggest the Subcommittee review the 
history of legislative intent and regulatory changes in this regard and 
consider reverting back to the pre-2008 requirements.
    2. Substantive Changes: The Subcommittee should review the 
provisions that permit accreditors to visit only a ``representative 
sample'' of additional locations if an institution operates more than 
three additional locations and that allow an institution to establish 
additional locations without prior approval from its accreditor. In my 
experience, growth of an institution, to include the addition of 
geographically distant campuses, should require greater oversight, not 
less. Accreditors should be required to visit and evaluate fully each 
campus or location where federal Title IV financial aid dollars may be 
spent by students.
    It is my hope that the Subcommittee finds these suggestions to be a 
useful addition to the discussion regarding accreditation's continued 
role as a gatekeeper to federal financial aid programs and I will be 
happy to provide additional information as may be requested.
    As the executive director of a national accrediting agency, I can 
attest that my organization is keenly aware of the important role that 
accreditation plays as a gate-keeping entity in the triad and 
understands the impact that role has on ensuring the reliability of our 
nation's current higher education oversight system. I am also cognizant 
that questions remain from policy members, regulators, and the general 
public regarding whether accrediting agencies have been living up to 
our collective responsibilities, and whether or not accreditation has 
the appropriate level of rigor and outcomes assessments. To that end, I 
look forward to continuing the dialogue on ways to strengthen 
accreditation as means to ensure that accreditation continues to 
fulfill its role as a gatekeeper to the Title IV federal student 
financial aid programs.
    Thank you again for the opportunity to testify before the 
Subcommittee and I stand ready to answer any questions you may have.
                                 ______
                                 
    Chairwoman Foxx. Thank you very much.
    I now recognize Ms. Anne Neal for 5 minutes.

             STATEMENT OF ANNE D. NEAL, PRESIDENT,
            AMERICAN COUNCIL OF TRUSTEES AND ALUMNI

    Ms. Neal. Good morning, and thank you, Madam Chairman and 
members of the committee.
    If policymakers and parents think of accreditation at all, 
they typically assume that it is a good housekeeping seal of 
approval, but it is not. As I have outlined more fully in my 
written testimony, accreditation has failed the taxpayer and 
failed American families.
    It has not insured quality, or transparency; imposes 
significant costs on colleges and universities; interfered and 
institutional autonomy and proven a barrier to innovation.
    Given these flaws, it is not surprising that there has been 
increasing bipartisan support for change. Indeed President 
Obama has suggested reforming accreditation or replacing it 
with a system focused on performance and cost.
    It is time for Congress to overhaul this broken system. Let 
me explain why. Accrediting agencies have a schizophrenic 
existence that makes them unable to protect the public 
interest.
    Peer review is by nature collegial and designed to help, 
but not mandate institutional improvements. The only quality 
assurance tool is to revoke accreditation, which is a death 
sentence for most institutions and something accreditors don't 
want to do.
    This is due in part to the fact that accreditation is a 
revelatory capture. The very people who benefit from federal 
funds, administrators and faculty, are the people who determine 
whether federal funds should flow.
    Congress' hope that it could rely on membership-based 
accrediting agencies and their peer review process to be 
reliable authorities on quality was misplaced. Accreditors are 
also barriers to innovation.
    Today the American higher education landscape is changing 
rapidly and as we have heard from Representative Foxx, leading 
universities and faculty are creating MOOCs many students never 
even enter a classroom, yet accreditation is focused largely on 
bricks and mortar institutions with little framework for 
dealing with these new models.
    Under the current regime, in fact, as you have heard from 
Dr. McComis, institutions are being forced to focus on concepts 
such as seat time when keeping a bottom in every seat is part 
of the problem, not part of the solution.
    Accreditation is also secretive, the consumer essentially 
knows only one thing; that the so-called seal of approval has 
been bestowed, but it doesn't mean that the college meets high 
standards or even that all of its programs are good.
    Federal dollars are flowing today to schools that graduate 
fewer than a quarter of their students in 6 years. The consumer 
is being duped and Congress is letting it happen.
    Accreditation interferes with governance and management, 
and it is costly and burdensome when college costs are already 
too high. Duke, Stanford, and the University of Michigan have 
reported spending over $1 million dollars on accreditation, and 
Princeton expects much the same. One can only guess the 
hardship imposed on less wealthy schools in these difficult 
times.
    Of course we might accept the cost if accreditors 
effectively guaranteed educational quality, but they have not. 
The National Assessment of Adult Literacy found that a majority 
of 4-year college graduates could not reliably compare two 
editorials or compute the cost per ounce of food items.
    As I am sure you have heard in your districts, employers 
consistently complain that their college graduates can't write, 
think critically, or offer the services they need. This is a 
national crisis and it is surely not quality assurance.
    It is time to break the link between federal student aid 
and accreditation. One option provided to you would ensure 
baseline financial protection and provide key data on student 
learning in a far simpler and more transparent system of 
quality assurance.
    To protect the federal dollar, institutions would establish 
their financial stability certified by an independent auditor. 
Federal funds could be cut off in cases of noncompliance and 
institutions would have the option to present a bond.
    Schools would also be required to provide key information 
in a clear and readily accessible format such as cost of 
attendance, graduation rates disaggregated by demographics, 
repayment rates, license or test results; much of what is 
already collected for the Department of Education's College 
Navigator site.
    This could again be independently certified. Removing the 
gatekeeping function for Title IV puts all institutions on a 
level playing field in terms of access to federal funds.
    This consumer-friendly alternative would not create new 
federal benchmarks or inappropriately insert the federal 
government into the workings of our colleges and universities. 
It would instead empower individuals to make their own educated 
choices and allow institutions to focus on key metrics of 
student success.
    I look forward to further discussion.
    [The statement of Ms. Neal follows:]

             Prepared Statement of Anne D. Neal, President,
                American Council of Trustees and Alumni

    Accreditation is not a household word. But it's one of the most 
critical issues facing higher education. I want to thank Chairman Foxx 
and members of the Committee for taking time to discuss this system 
which--by any measure--has failed the taxpayer and failed American 
students and families.
    So why do we have accreditation? In passing the Higher Education 
Act nearly 50 years ago, Congress linked accreditation and federal 
student aid to prevent students from squandering money on diploma 
mills. It took accreditors who had traditionally been peer review teams 
focused on self--improvement and made them gatekeepers of federal 
dollars. According to the Act, recognized accreditors were to serve as 
a ``reliable authority'' on the ``quality of education or training 
offered.'' In other words, the federal government delegated the 
determination of what schools would receive Pell grants and federal 
student loans to agents known as regional or national accreditors. 
Accreditation was thought to be a good proxy for quality. This 
assumption has been proven wrong.
    Today, nearly 7,000 colleges, universities, and professional 
schools in the United States are accredited (sometimes by more than one 
accrediting body). And institutions rarely lose accreditation. Parents 
and the public mistakenly believe accreditation is a good housekeeping 
seal of approval, proof that an institution has passed rigorous tests 
and is capable of ensuring students will graduate with a quality 
education. Sadly, that's not the case.
    Higher education quality has declined under accreditors' watch. 
Professors Richard Arum and Josipa Roksa recently reported in their 
book, Academically Adrift, that 45% of students didn't demonstrate any 
significant improvement in critical thinking, reasoning, and writing 
skills during their first two years of college. After four years, a 
stunning 36% still didn't show improvement. And this was among 
accredited colleges. Meanwhile, the American Council of Trustees and 
Alumni has reviewed nearly 1,100 accredited colleges and universities 
and found that students today can graduate with vast gaps in their 
skills and knowledge; a mere 20% of the surveyed schools require 
students to study U.S. history or government; only 5% require 
economics, notwithstanding the importance of this subject in our global 
economy.
    The Department of Education has, itself, documented troubling 
academic decline. The most recent National Assessment of Adult Literacy 
found that a majority of four-year college graduates could not compute 
the cost per ounce of food items or reliably compare two editorials. 
Employers, too, consistently report concerns that the quality of higher 
education is inadequate for workforce needs. We are talking about a 
national crisis.
    Far from safeguarding taxpayer dollars and the public trust, 
accreditation is actually doing the opposite. In the 2011-12 school 
year, federal student aid amounted to $175 billion. Student debt now 
exceeds $1 trillion.
    It is not surprising that the chorus for reform is growing--on all 
sides of the political spectrum--from President Obama who suggested an 
alternative accreditation system based on performance and results, to 
educators, outside experts, and citizens who are realizing that 
accreditation has privileged the status quo and restricted innovation 
in ways that undermine America's global leadership. In their book, A 
Dream Deferred, professors Stoesz, Karger and Carrilio see 
accreditation as nothing more than an outdated industrial-era monopoly.
    There are many good people doing their best to function in a broken 
system. And, as you have heard today, there are many who believe that 
the system is sound and that amendments are all that is necessary. But 
I would submit to you that it's urgent for Congress to overhaul and 
completely modernize the quality assurance process. If we are going to 
achieve greater access, quality, and affordability (and we must), we 
need a simpler, transparent system that ensures financial stability, 
outlines key markers of academic quality, and allows accreditors to 
thrive as voluntary associations for the self-improvement of higher 
education.
    Why is an overhaul of accreditation in the Higher Education Act 
needed? Let me explain six fundamental problems with the existing 
system.
    Gatekeeping and self-improvement don't mesh. As it currently 
exists, accreditation is a house divided against itself. The kind of 
peer review that assesses and enhances quality cannot thrive alongside 
the gatekeeping function necessary to referee an institution's 
eligibility to receive federal funds--a financial life and death issue 
for most colleges and universities.
    Accreditation is a perfect example of regulatory capture. The very 
people who benefit from federal funds--administrators and faculty who 
constitute accrediting teams--are the people who determine whether 
federal funds should flow. They know they will be judged by similar 
accrediting teams, making them unwilling to apply rigorous 
accountability standards.
    Accreditors do not ensure a certain level of educational quality; 
instead they insist that colleges and universities devise their own 
means of assessing their ``institutional effectiveness.'' Given this 
self-referential system, it is no wonder that academic quality has 
declined under accreditors' watch.
    Accreditors operate as a monopoly. Accreditors describe themselves 
as private voluntary membership organizations. But, quite frankly, 
there is nothing voluntary about them. In order to receive federal 
financial aid, colleges and universities must be accredited under 
existing law (and one can count on one hand those schools which do not 
depend on taxpayer dollars). To become accredited, institutions must 
pay membership dues to one of the regional or national accrediting 
bodies. And because the federal approval process allows the regional 
accrediting bodies to divide the country into regional cartels, 
institutions such as University of North Carolina-Chapel Hill or the 
University of Ohio, under existing law, effectively have only one 
accrediting body they can join. Accreditors, in other words, can hold a 
gun to the heads of college and university members that seek approval 
to receive federal funds.
    Accreditation is a barrier to innovation and is putting our global 
leadership at risk. Nearly 15% of U.S. college students study without 
ever setting foot on campus. The lecture as the primary means of 
delivering learning is rapidly being replaced by new teaching methods 
that blend technology and classroom experiences in ways that boost 
student outcomes. America's leading universities and faculty are 
creating Massive Open Online Courses (MOOCs) in which hundreds and 
thousands of students from all parts of the world enroll in a single 
course. And students and families have, thanks to the worldwide web, a 
plethora of resources about colleges and universities that were not 
even imagined in 1952 when accreditation was first adopted. One only 
need to acknowledge the changes in the higher ed landscape to realize 
that a change in the regulatory process--which has no framework for 
dealing with MOOCs and is still largely focused on the traditional 
constituencies of four-year bricks and mortar institutions--is long 
overdue.
    Accreditation is too costly. At a time of limited resources, 
accreditation adds to institutional costs without providing clear 
benefits. Princeton provost and incoming president Christopher 
Eisgruber (Appendix A)--in recent written testimony to the Department 
of Education's National Advisory Committee on Institutional Quality and 
Integrity--explained that the cost of federally-mandated accreditation 
often exceeds $1 million for a single institution and hundreds of hours 
of staff time. Stanford calculated that in 2009-10, it expended well 
over a million dollars towards reaccreditation, without even tallying 
the costs of the six years needed for the entire reaccreditation 
process. Vanderbilt University estimated that it devoted 5,000+ hours 
to accreditation-related work annually and that its School of 
Engineering devoted 6,250-8,000 hours annually, in years when reports 
were not due. The University of Michigan estimated $1.3 million direct 
and indirect costs. And this does not even begin to address the costs 
necessitated by other input-based standards, lengthy approval processes 
for institutional changes, and opportunity costs.
    Accreditation interferes with institutional autonomy. Rather than 
ensuring ``educational quality,'' accreditors have increasingly 
intruded in governance and institutional matters to tie the hands of 
America's colleges and universities. The ABA, which accredits many law 
schools, currently insists on a certain percentage of tenured 
professors, limits the amount of online learning, and compels a minimum 
number of instructional hours, all of which micromanage how a law 
school may be run--not to mention add cost. In 2012, although current 
University of Virginia policies reserve complete authority to the board 
in matters of hiring and firing a president, the Southern Association 
of Colleges and Schools placed UVA on warning, concluding that the 
University failed to comply with standards regarding governing 
processes and failed to consult the faculty before terminating the 
president. This is not the first time accreditors have engaged in what 
amounts to a power play with leaders on campus. In written testimony to 
NACIQI, then president of Dartmouth, Jim Yong Kim, now head of the 
World Bank, criticized accreditors for often substituting their own 
judgment for that of an institution's trustees and administrators. And 
former University of Colorado president Hank Brown concurred in a Wall 
Street Journal column calling on Congress to overhaul the failed 
accreditation system ``before it's too late'' (Appendix B).
    That's why the time has come to replace accreditation as the 
linchpin of federal student aid.
    I'd like to outline one option which has received support from 
Republican and Democratic members of NACIQI and been submitted to 
Secretary Arne Duncan in response to his request for advice on HEA 
reauthorization. Over a quarter of those voting supported the 
alternative, submitted by Neal and Arthur Rothkopf, former president of 
Lafayette College (Appendix C).
    This alternative would ensure baseline financial protection and 
provide key data on student learning in a far simpler and transparent 
system of quality assurance. And it would break the link between 
federal student aid and accreditation.
    To protect the federal dollar, institutions would establish their 
financial stability, as they must do today, and post a statement on 
their websites, certified by an independent auditor, that they have 
sufficient resources to ensure that all enrolled students can be 
supported to the completion of their degrees. If the statement is not 
supplied, or is found inaccurate by the independent auditor, federal 
funds would be cut off. Alternatively, institutions could present a 
bond.
    At the same time, schools would be required to provide families key 
information in a clear and readily accessible format on an annual 
basis, including cost of attendance; degree programs; graduation rates 
disaggregated by demographics; student loan default rates; student 
outcomes measured by licensure test results; and job placement rates--
much of which is already collected for the Department of Education's 
College Navigator site. This could again be independently certified so 
that if the data is falsified or inaccurate, federal funds would be cut 
off.
    Removing the gatekeeping function for Title IV puts all 
institutions on a level playing-field in terms of access to federal 
funds. At the same time, this alternative provides more consumer 
protection and quality assurance than the current accreditation system 
provides.
    And let me be clear. This alternative would not create any new 
federal benchmarks or insert the federal government into the workings 
of our colleges and universities. It would, instead, empower 
individuals to make their own educated choices and allow institutions 
to focus on key metrics of student success. Indeed, the proposal takes 
its cue from Stanford provost John
    Etchemendy, who stated in written testimony that, ``accreditation 
is no substitute for public opinion and market forces as a guide to the 
value of the education we offer.''
    This new system would model transparency and accountability, and it 
would be a considerable contrast to the existing accreditation system 
whose stamp of approval offers virtually no public information. If you 
look at the websites of accredited institutions in your Districts, you 
will find little more than that the school is accredited, and, on 
occasion, a disclaimer--even more disquieting--namely, that the 
accreditation does not apply to any programs at the school, only the 
institution.
    Meanwhile, accreditors would return to their original function--
voluntary institutional self-improvement--where their judgment would 
reflect the best practices of their peers and no longer be confused by 
the competing and contradictory gatekeeping role. They would offer 
their stamp of approval in education much as the very distinguished 
LEED system does in architecture.
    There, through voluntary standards, LEED has made Gold, Silver, and 
Platinum universally-recognized in the marketplace for environmentally-
friendly construction. The power of the LEED imprimatur rests in the 
honest and objective application of meaningful criteria--and needs no 
governmental mandate.
    There is no time to wait. It's time to realize accreditation as a 
gatekeeper for federal student aid is ineffective and intrusive. If we 
want to lower the cost to colleges and universities and reduce federal 
intrusion in higher education, we can start by demanding an end to this 
opaque, outdated regulatory system that benefits college insiders--at 
the expense of students and taxpayers.
                               appendix a

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
    Chairwoman Foxx. Thank you very much.
    I now recognize Mr. Carey for 5 minutes.

           STATEMENT OF KEVIN CAREY, DIRECTOR OF THE
         EDUCATION PROGRAM, THE NEW AMERICA FOUNDATION

    Mr. Carey. Thank you, Madam Chair, Ranking Member Hinojosa, 
and members of the committee.
    The federal government disperses $150 billion per year in 
support of higher learning and nearly every dollar goes to an 
accredited college or university. Students, parents, and 
taxpayers rely on the accreditation system to protect their 
interests. That system is failing.
    Recent years have seen broad evidence of abuse and consumer 
exploitation in for-profit and non-profit colleges alike. All 
of them were accredited.
    Last year 454 colleges reported 6-year graduation rates 
below 30 percent. All of them were accredited. Academic 
standards are in decline; students work half as much as they 
did in the 1960s, while the proportion of all course grades 
given an A rose from 15 to 43 percent.
    Nearly 20 percent of students report studying less than 5 
hours a week outside of class all at accredited institutions. 
There are currently almost 6 million Americans in default on 
student loans taken to attend accredited colleges and 
universities. Why has this happened?
    Well, I echo the comments of my colleague, Anne Neal; a 
system built around collegial peer review is different than a 
system built around necessary regulation of organizations 
taking large amounts of taxpayer dollars.
    There is also a financial conflict of interest built into 
the system. Accreditors are financed by fees and dues paid by 
the same institutions they evaluate. This is like bond rating 
firms giving AAA ratings to mortgage backed securities sold by 
the same firms that pay their fees. It does not work out well 
in the long run.
    Accreditors use those fees to conduct work that is largely 
hidden from view while Congress has restricted the ability of 
accreditors to enforce academic standards.
    Colleges are free to define their own standards of learning 
which accreditors must accept. Unsurprisingly, nearly all 
colleges believe they are successful. Unfortunately research 
such as Richard Arum and Josipa Roska's ``Academically 
Adrift,'' which found limited or no learning among a large 
number of college graduates suggests otherwise.
    Accreditation is also a major barrier to innovation. 
Imagine if in 1970 Toyota had needed General Motors' permission 
to start selling cars and was required to build the same kind 
of cars in the same way using the same labor contracts in the 
same kinds of factories.
    The American automobile market would have been very 
different and not in a way that was good for consumers and 
competition. Because of accreditation, that is basically the 
way higher education works today.
    Imagine for example that a Nobel prize-winning scientist 
wanted to create a startup company that did nothing but offer 
the world's greatest undergraduate physics curriculum on-line 
and charge one-tenth as much money as typical students pay 
today.
    Under current law, a student could give their Pell Grant or 
Stafford Loan money to the most dysfunctional or chronically 
mediocre college in America, but not to that Nobel Prize winner 
and his or her company. Why? Because of accreditation.
    The problem is not that the Nobel Prize winner's startup 
would fail to meet existing accreditation standards; it is that 
existing accreditation standards don't even apply to that kind 
of scenario.
    So we recommend the following changes to the accreditation 
process. Accreditors should create multiple tiers of approval 
to distinguish excellent institutions from those who only meet 
minimal standards.
    They should be required to publicly disclose all 
accreditation documents including negative information about 
local colleges.
    Congress should remove financial conflicts of interest from 
the system. Instead of paying the same organizations that 
evaluate them, colleges should pay accreditation fees to the 
U.S. Department of Education, which would then disburse money 
to accreditors based on volume and performance. Accreditors 
that approve colleges with high default rates on federal 
student loans, for example, would be financially penalized.
    Students would also benefit from creating a new system of 
approving innovative higher education organizations, not just 
colleges, to receive federal financial aid. Under such a 
system, organizations would be allowed to seek approval for 
individual programs or even individual courses that meet high 
standards of value and quality.
    They would have to disclose what learning outcomes students 
would need to achieve, what process would be used to evaluate 
those outcomes, and the actual student learning results on an 
ongoing basis.
    To ensure that such a new system promoted needed price 
competition in higher education, we would suggest that 
available financial aid per course be set at 50 percent of the 
current per course average amount available for a full-time 
student receiving a Pell Grant.
    In other words, organizations applying for approval under 
this system would have to meet much greater standards of 
transparency and accountability for learning and do it for half 
as much money compared to colleges working under the existing 
system.
    This would create the kind of market competition and 
downward pressure on prices that is the only real solution to 
the long-term cost crisis in American higher education.
    This is not a problem that can be regulated away. We need 
new competitors in the market to provide better services for 
less money, and we need the accreditation system to not stand 
in the way.
    Thank you very much.
    [The statement of Mr. Carey follows:]

              Prepared Statement of Kevin Carey, Director,
            Education Policy Program, New America Foundation

    It is difficult to overstate the importance of higher education 
accreditation. Of the $150 billion per year in grants and loans that 
the federal government disburses in support of higher learning, nearly 
every dollar goes to an accredited college or university. Students, 
parents, and taxpayers rely on the accreditation system to protect 
their interests. Accreditation is the only college quality control 
system of national scope, the only mechanism by which the federal 
government decides who gets to be a college and who does not.
    And it is failing.
    College is becoming more and more expensive, pricing out middle- 
and lower-income families and driving more students into debt they 
cannot repay. At the same time, the quality of the education colleges 
are providing is increasingly suspect. Only half of students who start 
college earn a degree within six years, and the latest research 
suggests that many of those who graduate don't learn very much.
    Recent years have seen broad evidence of abuse and consumer 
exploitation at for-profit and non-profit colleges alike. All of them 
were accredited.
    According to the U.S. Department of Education, 89 four-year 
colleges increased their net price by over 40 percent between 2008 and 
2010. All of them were accredited.\1\
---------------------------------------------------------------------------
    \1\ http://collegecost.ed.gov/catc/Default.aspx#
---------------------------------------------------------------------------
    Last year, 454 college reported six-year graduation rates below 30 
percent. All of them were accredited.\2\
---------------------------------------------------------------------------
    \2\ http://www.collegeresults.org/
---------------------------------------------------------------------------
    Nearly six million people are currently in default on billions of 
dollars in federal student loans, facing the prospect of ruined credit, 
ballooning payments, and years of financial struggle because their 
degrees aren't worth the price they paid. All of that money was 
borrowed to attend accredited colleges and universities.
    Meanwhile, academic standards are in decline. In 1961, full-time 
college students studied full-time, devoting 40 hours a week to class 
and academic work. By the 2000s, the average had dropped to 23 hours 
per week.\3\ At the same time, the proportion of all course grades 
given an ``A'' rose from 15 to 43 percent.\4\ Grades are going up as 
student effort goes down. Nearly 20 percent of students report studying 
less than five hours a week outside of class--all at accredited 
institutions.
---------------------------------------------------------------------------
    \3\ http://www.nber.org/papers/w15954.pdf
    \4\ http://newamerica.net/publications/policy/
cracking_the_credit_hour
---------------------------------------------------------------------------
    The accreditation system did not stand by and allow costs to 
skyrocket and standards to decline because accreditors are indifferent 
to these problems. They did it because the accreditation system is not 
equipped to solve these problems. It never has been, and never will be, 
as currently designed.
    If Congress wishes to make meaningful process on the twin crises of 
college cost and quality, it will need to think about accreditation and 
quality control in very different ways.
    The organization that accredits most colleges here, in Washington, 
DC, is called the Middle States Commission on Higher Education. It was 
founded in 1887 by a group of colleges that joined forces to lobby the 
government for tax breaks. (Some things don't change.)
    Middle States became one of the six so-called ``regional'' 
accreditors that dominate higher education quality control today. Those 
organizations evolved into their current form in the first decades of 
the 20th century, as voluntary non-profit clubs that performed peer 
review. This remains the heart of accreditation. Officials from other 
accredited colleges perform site visits and render a broad judgment on 
the procedures, structures, and attributes of their peers. At the same 
time, the colleges being evaluated undergo a lengthy ``self-
assessment.'' It is by nature a complicated and opaque process, 
involving many meetings and a lot of paperwork. College officials say 
it is valuable for self-reflection and continuous improvement, and 
there is no particular reason to disbelieve them.
    The problem is that this very old, secretive process of voluntary 
peer review has been twisted over the years to serve a variety of 
additional purposes for which it is ill-suited. Most significantly, the 
federal government outsourced the job of protecting taxpayer and 
student interests to voluntary accreditation associations. Accreditors 
are the principal gatekeepers to hundreds of billions of dollars in 
federal Title IV aid. If you are accredited, you can become rich and 
famous running a college or university. If you are not accredited, the 
financial cards are so heavily stacked against you that there is no 
real opportunity to be a college at all.
    This creates several large problems. There are huge incentives for 
logrolling. Every college that sends a representative to a peer review 
team knows that its turn for evaluation will eventually come. It is no 
surprise, then, that colleges hardly ever lose accreditation, despite 
years or decades of poor performance.
    There is also a financial conflict of interest built into the 
system. Accreditors are financed by fees and dues paid by the same 
institutions they evaluate. This is like bond-rating firms giving 
Triple-A ratings to mortgage-backed securities sold by the same firms 
that pay their fees. It doesn't work out well in the end.
    Accreditors use those fees to conduct work that is largely hidden 
from view. Candid evaluations of problems and weaknesses are not made 
available to the public. Accreditors and colleges insist that this is 
necessary for peer review--which may be true. But it also means that 
accreditation provides little or no useful information to students 
choosing colleges, and that the public's agent of quality control is 
concealing information from the public itself.
    The scope of accreditation review is also limited by a combination 
of capacity constraints and Congressional limitations. Organizations 
such as Middle States have roughly 40 employees to oversee more than 
800 institutions, meaning there is no way to engage in meaningful 
oversight of all the schools it works with.
    And even if they had such capacity, Congress has enacted 
restrictions over the years that give institutions significant freedom 
from accreditors' attempts to define high-quality learning.
    Accreditors are required to evaluate success ``with respect to 
student achievement in relation to the institution's mission, which may 
include different standards for different institutions or programs, as 
established by the institution * * *'' The law further stipulates that 
a college shall not be restricted in its ability ``to develop and use 
institutional standards to show its success with respect to student 
achievement * * *'' [emphasis added]
    In other words, colleges are free to define their own standards of 
academic success, which accreditors must accept. Unsurprisingly, nearly 
all colleges believe they are successful.
    Unfortunately, research such as Richard Arum and Josipa Roksa's 
Academically Adrift, which found ``limited or no learning'' among a 
large number of college graduates, suggests otherwise.
    The result is that many institutions are visited only once or twice 
a decade, and the review is limited mostly to organizational policy and 
procedure. Accreditation involves no legitimate investigation of how 
much students are learning or what kind of academic standards, if any, 
are enforced. The existing accreditation process simply does not allow 
for such questions to be asked, or answered. That is why standards have 
fallen so far under the aegis of accreditation.
    And despite the minimal oversight, accreditation is still very 
burdensome for colleges. The self-evaluation for Georgetown 
University's recent re-accreditation process, for example, is 107 pages 
long, not counting 33 separate appendices, which include the ``OADS 
Organization Chart,'' ``Faculty Sizing Planning, 2005-2006 (Appendix 18 
from Georgetown University's Periodic Review Report for the Middle 
States Commission on Higher Education, May 2007),'' the ``STIA 
Curriculum Map,'' and ``Enlarged Figures for Standard 14.''
    The accreditation process is also a major barrier to innovation. 
Accreditation is a club, and if you want to join the club, or be 
allowed to stay in the club, you have to show that you're like the 
other members. This all but eliminates the possibility of price 
competition from new entrants to the higher education market, which is 
the only thing that will solve the nation's college cost problem in the 
long run.
    Imagine if, in 1970, Toyota had needed General Motors' permission 
to start selling cars. To get that permission, it had to demonstrate, 
after a number of years involving many meetings and a great deal of 
paperwork, that it would build the same kind of cars as General Motors 
in the same kind of way--the same weight and styling and gas mileage, 
in the same kinds of factories, with the same labor contracts. The 
American automobile market would have been very different, and not in 
way that was good for consumers and competition.
    That's the way higher education works today. New entrants to the 
college market are in a Catch-22: They have to conform to the standard 
model and enroll students before they can become accredited, but they 
need accreditation to compete on a level financial playing field and 
enroll students. It's little wonder that while whole American 
industries have been transformed in recent decades, most of higher 
education looks remarkably the same--except it's a lot more expensive.
    Virtuous competition does not come from new organizations built to 
be as large, expensive and complicated as the old ones. Instead, it 
comes from nimble, flexible competitors using the latest technological 
innovations to offer customers a better service for a lower price.
    Assume, for example, that a Nobel-prize winning scientist wanted to 
create a start-up company that did nothing but teach the world's 
greatest undergraduate physics curriculum online, a multi-course 
sequence that uses the latest discoveries in cognitive science along 
with cutting-edge teaching tools. Because of economies of scale, and 
because such an organization would be unburdened by administrative 
bloat and decades or centuries of tradition, it could charge one-tenth 
as much as a typical student pays today.
    Under current law, a student could give their Pell grant or 
Stafford loan money to the most dysfunctional or chronically mediocre 
college in America--but not to the Nobel Prize winner. Why? 
Accreditation. The problem is not that the Nobel Prize winner's start-
up company would fail to meet existing accreditation standards. The 
problem is that existing accreditation standards don't even apply to 
such a higher education organization.
    We know that the prospect of such programs is not science fiction. 
Right now, the world's greatest colleges and universities are serving 
millions of students through Massive Open Online Courses, or MOOCs, 
taught by leading professors at universities including Stanford, 
Harvard, and M.I.T. At the moment, it's free to take these courses. But 
it's easy to imagine students paying a small fee to take a proctored 
exam, or receive additional one-one-tutoring. Yet they could not use 
their federal financial aid to pay for these services, and the reason 
is accreditation.
    Students and families across America are increasingly calling for 
someone to solve the problem of rising college costs. No such solution 
is possible in a higher education system ruled by institutional 
accreditation. As long as incumbent colleges get to decide what the 
meaning of ``college'' is--as long as only ``colleges'' as we have 
historically known them can compete financially on fair terms--higher 
education will continue to become more ruinously expensive, and deeply 
rooted quality problems will not improve.
    The following changes to accreditation can help fix this problem.
    First, there a number of opportunities to improve the existing 
regime of institutional accreditation. They include:
    <bullet> Require accreditors to create multiple tiers of 
accreditation. The current system is binary an institution is in the 
club, or it is out. This provides little consumer information and the 
inevitable effects of log-rolling and bureaucratic pressure create low 
minimum standards. Accreditation status is essentially meaningless for 
the best colleges and too meaningful for the worst. Accreditors should 
reduce the burden on institutions that succeed in serving students well 
while place greater scrutiny on less-successful colleges, including 
plans for stronger monitoring, meaningful improvement plans, and a 
clear timeline for eligibility loss.
    <bullet> Require accreditors to publicly disclose all accreditation 
documents. The possible benefits of secrecy to the peer review process 
are outweighed by the interests of transparency and public disclosure. 
As long as accreditors are serving a public function by granting and 
denying access to the Title IV financial aid system, their work should 
be available to see.
    <bullet> Remove financial conflicts of interest. Instead of paying 
the same organizations that evaluate them, colleges should pay 
accreditation fees to the U.S. Department of Education, which would 
then disburse money to accrediting organizations based on volume and 
performance. Accreditors that approve colleges with high default rates 
on federally subsidized student loans, for example, would be 
financially penalized.
    Accreditors could choose not to conform to these new requirements, 
in which case they could continue to operate as they were historically 
founded: as voluntary non-profit organizations with a primary mission 
of conducting peer review. They would not, however, have the authority 
to grant colleges eligibility to receive Title IV funds.
    The second set of needed accreditation changes involve creating new 
methods of giving innovative, high-quality, low-cost higher education 
organizations access to the federal Title IV system. This approach 
reflects policy ideas recently advanced by both Democrats and 
Republicans. In policy documents accompanying the 2013 State of the 
Union Address, President Obama proposed ``establishing a new, 
alternative system of accreditation that would provide pathways for 
higher education models and colleges to receive federal student aid 
based on performance and results.'' The distinction between ``higher 
education models'' and ``colleges'' suggests liberating students from 
the incumbent college model and allowing entrepreneurs to develop new 
methods and designs that meet rigorous quality standards.
    In his response to the State of the Union, Senator Marco Rubio 
called for ``student aid that does not discriminate against programs 
that non-traditional students rely on,'' again suggesting that the time 
has come to create new opportunities for non-traditional organizations 
to receive federal financial aid.
    Some of these innovations can be advanced using existing statutory 
authority. The U.S. Department of Education recently wrote a ``Dear 
Colleague letter'' describing how colleges can be approved to offer 
courses and programs under the ``direct assessment'' provisions of the 
Higher Education Act. The ``experimental sites'' provisions of HEA also 
hold promise for supporting and seeding innovation. It will be 
important for established accreditors to help facilitate this process 
and not stand in the way of colleges that are working to adopt 
innovative, high-quality, low-cost higher education models that serve 
the needs of diverse students.
    But in the long run, students would benefit most from creating a 
new system of approving innovative higher education organizations--not 
just colleges--to receive federal financial aid. Such a system would 
have the following characteristics:
    <bullet> Course- and program-level approval. The ``traditional'' 
college student who takes all of his or her courses from a single 
institution is already a thing of the past. Most students who earn 
bachelor's degrees today accumulate credits from multiple institutions, 
and this trend is likely to continue. The archaic practice of limiting 
financial aid to colleges that offer complete degree programs is a 
barrier to innovation and price-reducing competition. Both non-profit 
and for-profit colleges should be allowed to seek approval for programs 
and individual courses that meet high standards of value and quality.
    <bullet> Real standards of quality. The current accreditation 
system evaluates organizations, not learning. Programs and courses 
approved under the new system would have to disclose what learning 
outcomes students would need to achieve, (B) What process would be used 
to evaluate those outcomes, and (C) Actual student learning results on 
an ongoing basis.
    <bullet> Better value for students, families and taxpayers: To 
ensure that the new system promotes needed price competition in higher 
education, available financial aid per course would be set at 50 
percent of the current per-course average amount available for a full-
time student receiving a Pell grant.
    <bullet> Multiple tiers of performance. An organization's success 
in serving students should be reflected in what types and amounts of 
aid it can receive, as well as how much administrative burden it faces. 
High-quality providers in the new system should have fewer time-
consuming obligations, while those that struggle should be subject to 
stronger ongoing monitoring and expectations for improvement or loss of 
eligibility.
    In other words, organizations applying for approval under the new 
system would have to meet much greater standards of transparency and 
accountability for learning results and do it for half as much money, 
compared to colleges working under the existing accreditation system.
    If no organizations choose to compete under these conditions, there 
would be no harm to the taxpayers. If, however, innovative 
organizations approved under this system used new technology to create 
a new market for high-quality, low-cost higher education programs, it 
would alter the dynamics of the higher education market, forcing 
existing colleges to improve quality and reduce prices on behalf of 
students.
    Without major reforms to the accreditation system, the American 
higher education system is doomed to more of the same: rising prices, 
declining quality, missed opportunities for upward mobility, and a 
diminishment of the nation's human capital in a time when education is 
the key to economic prosperity and civic life.
                                 ______
                                 
    Chairwoman Foxx. Thank you very much Mr. Carey.
    I thank all the witnesses again.
    I now recognize the chairman of the Higher Education 
Workforce Committee, Mr. Kline, for 5 minutes.
    Mr. Kline. Thank you, Madam Chair.
    Thank the witnesses for being here today for excellent 
testimony. It is an issue which we have been struggling with 
frankly and debating among ourselves and as we look at 
reauthorizing the Higher Education Act, this we think is a very 
key piece to that.
    So let me start Ms. Neal with you. You are suggesting that 
we dramatically reform the accreditation process and you were 
talking about information being made available to students and 
parents and so forth. Would there be no word called 
accreditation in your system?
    Ms. Neal. Thank you very much. In my system, the 
accreditors could still flourish and in fact it envisions 
returning accreditors to their original role which was to serve 
as voluntary, private, peer-review organizations.
    So they could in fact do the very things that we have heard 
from both accrediting bodies and Kevin Carey. They could have 
tiers of approval. They could have sector-based approval. They 
could have a range of approvals that would provide considerably 
more information to consumers than they receive now, but what 
they would not have is the gatekeeping role.
    So I think we could be assured under this system rather 
than the conflict between self-improvement and accountability 
and quality assurance.
    In this case they would simply be self-improvement, peer-
review groups, aiding and assisting institutions that chose to 
have their assistance.
    Mr. Kline. So in that system what would the role of the 
Secretary of Education be in this gatekeeping business?
    Ms. Neal. The gatekeeping would essentially be set by 
financial solvency, which would be established as it is now by 
the Department of Education, but what we would add is an 
independent statement that would be certified--so that the 
Department of Education could proceed and sanction and take 
away federal dollars from an institution that is not federally 
financially solvent.
    And then we would also have institutions providing key data 
for families seeking to go to college, which quite frankly are 
just not available now. As I said earlier, when schools are 
accredited we really don't know anything about them, and 
accreditors themselves say that it does not ensure that 
programs in school are good.
    It simply is a blanket seal that really tells us very 
little and as Kevin has indicated, masks the fact that many of 
these institutions are graduating less than 25 percent on the 
federal dollar.
    Mr. Kline. You use the term ``independent agency.'' What 
would that be?
    Ms. Neal. Independent--well, in this case, this would be an 
independent auditor--what we are envisioning--I am sorry, what 
we are envisioning is that the institutions would indicate to 
students that they would have sufficient resources to pay for 
them in the event that they went belly up.
    And that this then would be certified by an auditor. 
Similarly, information about a particular outcome, about price, 
about license rates could be certified by an independent 
auditor so that in the case that they are engaging in fraud or 
deceiving the consumer, actions could be taken against them. So 
we would have some basic stability and insurance for the 
consumer as well as information.
    Mr. Kline. Okay, thank you very much.
    Dr. Sibolski and Dr. McComis, how much time does it take 
for an institution to become accredited initially? And do you 
have any idea what the expense associated with that might be?
    Ms. Sibolski. Let me take the first answer on that. For an 
initial accreditation it can take up to 3 years for an 
institution to go through the process that exists today, and 
that is because there are several steps, and my full testimony 
does outline what all of those steps are that we take an 
institution through.
    One of the reasons for that amount of time is so that we 
are being sure that we are accrediting an institution that will 
be solidly accreditable and that we won't find ourselves 6 
months after having accredited an institution with a need to 
put that institution on sanction of some sort.
    So we want to be careful and we want to be sure that an 
institution is doing an application for us and then doing a 
clear self-study.
    You had another question in there?
    Mr. Kline. Cost.
    Ms. Neal. The cost. Actually no, I haven't done a study of 
cost of that. Certainly could be done, but it hasn't to this 
point.
    Mr. Kline. Okay. I certainly have some follow-up questions, 
but I can see the light is orange and getting ready to go red, 
and I am in an ever sort of futile effort to convince my 
colleagues that we ought to stay within the time limit, but at 
some point if others don't ask we'll come back to you for 
answers on the record about what is the time and what is the 
cost for an already accredited institution to open another 
campus, for example. So anyway thank you very much for your 
testimony, and I yield back.
    Chairwoman Foxx. Mr. Hinojosa, I recognize you for 5 
minutes.
    Mr. Hinojosa. Thank you.
    My first question is to Mr. Carey. New models of education 
and learning are happening everywhere. Distance learning and 
all that has exploded here in the last 5 years.
    It is becoming clear that many Americans are learning 
important skills both inside and outside the classroom. 
However, it is very difficult to gain access to Title IV money 
and perhaps rightly so. Should the evolution of new high 
quality, low-cost centers of learning like MOOCs, which I think 
stands for massive open-line courses, have the opportunity to 
access Title IV funds?
    Mr. Carey. Thank you. I believe they should. I think that 
the kind of competition the higher education market needs won't 
come from other colleges. It will come from flexible, low-cost 
providers of higher education that are nimble that focus on 
certain aspects of the college experience. They don't need to 
provide everything to everybody as the----
    Mr. Hinojosa. I agree with you, but in this case if we were 
to get what you are talking about and I agree with, could the 
current accreditation system we are using accommodate these new 
and unique entities? Or should an alternate system be created 
in tandem with the current one?
    Mr. Carey. The current accreditation system cannot 
accommodate them. It is a club of colleges that admits other 
colleges to the club. I believe we do need an alternate system 
to work in tandem with the existing accreditation to provide 
access to Title IV funds so new organizations can compete on a 
level financial playing field if they are willing to subject 
themselves to high standards of quality and value on behalf of 
students.
    Mr. Hinojosa. Thank you.
    Ms. Neal, are there regulatory functions that the 
department and the U.S. Congress have delegated to accreditors 
that might be better handled by others?
    Ms. Neal. As I indicated in my proposal, the Department of 
Education has delegated to accreditors this quality review, but 
in essence they have really provided no guarantee of quality.
    So what I think--appreciating the need to give autonomy to 
our colleges and universities since that has been a great 
strength, the greatest strength of American higher education--I 
think a system that will ensure baseline stability and then 
provide consumer information is one that will intrude the least 
but provide the most protection, which we don't really have 
under the current system.
    Mr. Hinojosa. Ms. Neal, you, in your statement, indicate 
that accreditation is too costly and you mentioned some of the 
Ivy League schools like Princeton and Stanford, Vanderbilt, 
University of Michigan all saying that they are going to be 
spending plus or minus $1 million, plus thousands of staff 
hours to do this accreditation. How can that be changed?
    Ms. Neal. Again, I think that the process that we currently 
have is a burdensome one. As you have heard, it takes multiple 
years. It requires vast piles of paper-pushing. Often a focus 
on matters that do not relate directly to educational quality, 
which is the very purpose of the accreditors according to the 
existing Higher Education Act.
    We see numerous accrediting bodies focusing on governance, 
focusing on management. For instance the American Bar 
Association has a certain percentage of tenured professors that 
it requires. It limits on-line learning for students. It also 
restricts instruction. It does not allow the institution to 
make these decisions on its own. These are all cost-inducing 
efforts by the accreditors that have very little to do with 
quality.
    Mr. Hinojosa. You also said in your statement that some of 
the accreditation is secretive. How can they make it secretive?
    Ms. Neal. Well again this is the nature of peer review. 
Peer review is for self-improvement. Collegial bodies are 
helping one another to try to enhance better quality.
    Now one can question whether or not that has happened at 
all, but the essence of this peer-review, self-improvement is 
not to tell the world. It is to quietly work together to figure 
out how to do things better.
    So it is essentially contradictory when you are trying to 
have a quality assurance accountability regime.
    Mr. Hinojosa. And the President, in your remarks, you said 
President Obama suggested an alternative accreditation system 
based on a performance and results to the educators, outside 
experts, and citizens. Is that realistic? Can that be done?
    Ms. Neal. Well, I certainly think that it underscores the 
broad-based concern about the current system. Obviously the 
President does not feel that it is focusing properly on 
affordability and on performance, and certainly my remarks 
would second that.
    I think the proposal that I set forth which is on financial 
stability and key data--it is interesting to note that that was 
supported by a bipartisan group of members of the National 
Advisory Committee on Institutional Quality and Integrity.
    So I think that there is broad-based support across the 
party line here to do some radical changing of the 
accreditation system in order to protect the consumer and to 
keep basically the federal government out of the workings of 
our colleges and universities.
    Mr. Hinojosa. I yield back.
    Chairwoman Foxx. Thank you, Mr. Hinojosa.
    A thought that strikes me in terms of your comments about 
secrecy as someone who has been through accreditation, the 
thing that hit my brain was that old saying, ``a camel is a 
horse designed by committee.''
    As I think about accreditation and the pain that most 
schools go through, I think about that in terms of all the 
machinations that happen and while you are trying to get some 
good things out of it, you wind up with a camel instead of a 
horse.
    I don't know if that helps you any or not but I think 
people that have been through it could identify with that.
    I now recognize Mr. Walberg for 5 minutes.
    Mr. Walberg. Thank you, and what does a subcommittee design 
then? I would ask the--what does a subcommittee design then? I 
will leave that for later.
    Dr. Sibolski, interested in hearing your testimony, and 
specifically the insight you gave on how schools go about 
becoming accredited.
    As you know tuition prices continue to climb. Students just 
expect that every year and wonder in amazement how in the world 
they are going to afford it.
    As student tuition dollars fund all types of higher 
education activities, I am curious as to the actual cost and I 
go back to what our full committee chairman requested about 
costs.
    When we have schools such as University of Michigan that 
come upwards of $1 million to go through the accreditation 
process, it has to have some impact upon our students and 
students' tuition.
    I think you indicated that you don't have a cost figure for 
what it would cost an institution of higher education to go 
through the initial accreditation process, am I right?
    Ms. Sibolski. That is correct.
    Mr. Walberg. So you wouldn't have any understanding then of 
what it would take a school to go through reaccreditation 
either?
    Ms. Sibolski. Actually I could answer that, I think. While 
there are some indications out there of the type that Ms. Neal 
commented on, there are also some other studies that have been 
done.
    One in particular that I am familiar with is a doctoral 
dissertation that was done by someone out in California that 
addressed the cost of reaccreditation, and found through that 
study that the average price was a good bit lower than what the 
research universities had indicated in the testimony 
previously.
    Even at that though, I have to admit that what the result 
was that came out in that study, was that over the course of 7 
to 10 years what would be a normal accreditation cycle, the 
price was still someplace in the neighborhood of $400,000.
    So do the math and it is going to be $50,000 or $60,000 a 
year. That is not inconsequential and we know it, and some of 
what we try to do is to make sure that an institution is using 
the process not just to become accredited, but to do something 
that will be of benefit to the institution, too.
    So while we have to do self-studies, we certainly want an 
institution to look at areas where they believe that they need 
to make some improvements. Perhaps focusing on planning and 
budgeting, perhaps focusing on areas like student learning 
outcomes assessment.
    Mr. Walberg. In your term as president, how many schools 
have gone through the accreditation process?
    Ms. Sibolski. Oh gosh, we do--the Middle States Association 
has--the Middle States Commission on Higher Education has 532 
accredited and candidate institutions and we run on a 10-year 
cycle.
    I have been there about 10 years so we have been through 
that full cycle and the accreditation actions are taken both at 
the 5-year period and at the 10-year period. So just double up 
the number and that is probably a good estimate.
    Mr. Walberg. Okay.
    Dr. McComis, I guess I would ask you, I saw you doing some 
calculating down there. What would be the cost for a school to 
go through initial accreditation and subsequently 
reaccreditation?
    Mr. McComis. Congressman, for initial accreditation the 
average length of time is 2 years. Direct costs to ACCSC as an 
agency is less than $10,000. It depends on the size of the 
institution; the larger the institution is, the more on-site 
evaluators are required for that process.
    When I say direct costs I mean the application process, the 
on-site evaluation processes that go with that, would be less 
than $10,000.
    Mr. Walberg. So Baker College in my district would go 
through the process in 2 years, $10,000 cost?
    Mr. McComis. Depending on the size of that organization.
    Mr. Walberg. Okay.
    Ms. Neal, you have had some extremely constructive 
criticisms and that the fact that you indicated that parents 
mistakenly believe that this is a good seal of approval. Expand 
a little bit on what you see as changes that can be made in 
Higher Education Act reauthorization that would make it better 
for these parents to understand that they are getting the bang 
for their buck?
    Ms. Neal. Well, as we heard from Kevin we are looking at 
$150 billion to $175 billion in student financial aid. We are 
also looking at $1 trillion in default. So this is a major 
issue for you all and for the American people.
    And so I think there is a great concern that we find a 
quality assurance system that will protect the federal dollar 
and that will also ensure quality and provide information to 
families who are seeking to find a college.
    And so I think today the system that we have really just 
doesn't do that. As I indicated, the consumer is provided 
virtually no information and in fact, I think is often deceived 
by the so-called good housekeeping seal of approval because it 
may mask the fact that the institution is graduating very few 
people and that many of the students have massive debts.
    It really doesn't tell the consumer much of anything, and I 
think what we need to do to protect the federal dollar is to 
have essentially a guarantee that the institutions which are 
receiving funds are financially stable and will be able to 
compensate students and then to also to provide information 
that will be key indicators of student success at colleges and 
universities.
    And I know when Shirley Tilghman spoke to the National 
Advisory Committee on Institutional Quality and Integrity 
talking about issues such as alumni satisfaction, graduation 
rates, placement rates; these sorts of criteria that will help 
the consumer to be able to compare and contrast between 
institutions and to be a set of standard data that could be 
outlined that would make it much easier for parents to walk 
with their wallets to a better value and a better institution.
    Mr. Walberg. Thank you.
    Chairwoman Foxx. Mrs. Davis, you are recognized for 5 
minutes.
    Mrs. Davis. Thank you Madam Chair.
    Thank you all for being here.
    I noticed, Dr. McComis, you have actually had a fairly 
extensive time to look at institutions and the career 
institutions that you have been involved in, and in fact a 
number of them you have acted on.
    Do you--would you suggest that some of the institutions you 
look at are more risky and in fact does that indicate why some 
of those were not accredited? What do you think is going on? 
How do you compare to other accrediting institutions?
    Mr. McComis. Well, I have been with the agency for 18 
years. Over the last 10 years or so just kind of looking at 
some rough numbers, we have taken, you know, close to 85 
actions to revoke accreditation.
    I look at that as a part of the accountability process; 
that institutions change over time, they become different, they 
grow, they become participants in federal financial aid 
programs.
    And it is an important part of the process to continually 
look at whether or not that institution meets the best practice 
standards, give them an opportunity to make those 
demonstrations, and if they cannot, then the accountability 
side of the accreditation process must begin to ensue and have 
action taken.
    Mrs. Davis. As we look at innovation then, how does that 
fit in? And especially with MOOCs, what are we doing then to 
ensure that we are moving forward and providing for that 
innovation and yet making certain that the cost factor is 
something that families can handle, that young people can 
handle?
    Mr. McComis. Well I can speak--my agency has an allowance 
for consortium and partnerships to be part of the accredited 
process and part of the program, but the institution still 
retains responsibility for that.
    So with that partner that an institution can work with, 
they may not be accredited or accreditable as Mr. Carey has 
pointed out, but it can be part of the program. That 
institution however still has to retain the responsibility and 
the accountability for all the elements of the program.
    So we have put that in place in order to allow for 
innovation, to allow for portions of courses to be offered by 
entities that might not otherwise be accreditable through our 
normal process.
    Mrs. Davis. Could the rest of you weigh in on, what should 
this look like? I mean, as we move forward, where does that fit 
in?
    I think the other issue that is really important is how do 
we judge outcomes as far as the opportunities for young people 
to move on into the workforce?
    One of the things we know about providing that information, 
and we talk about that as it relates to the G.I. bill, for 
example, and what institutions our veterans are going to, the 
ability to be able to, you know, indicate the chances of 
getting jobs after they leave a particular institution.
    How do you feel that that actually is indicated in the 
accreditation? Should it be? What kind of data should be 
handled as we look at that issue as well? Anybody want to--Mr. 
Carey?
    Mr. Carey. I think, couple of things. There are many 
opportunities now to gather exactly the kind of information you 
are talking about. We can calculate for individual programs, 
many college or university the percentage of people going on to 
get jobs and how much money they make.
    We know from surveys that the vast majority of students go 
to college for one reason and that is to get a better job. So 
absolutely, we should create that kind of information. We 
should provide it to students and parents ahead of time so they 
can make smart choices.
    And I believe that if we are going to approve new models, 
innovative kinds of approaches to higher education, we should 
set a higher bar. We should set a very high bar for people who 
want to do new things and work outside the system and that bar 
should be defined in terms of student learning outcomes and 
ultimately whether people are able to get jobs and pay back 
their loans.
    Mrs. Davis. Is that for information for people though, or 
is it part of the accreditation?
    Mr. Carey. I believe it should be both. There were really 
no minimal standards in the accreditation process in terms of 
student outcomes. You can be an accredited college and graduate 
15 percent of your students every year, and I can point you to 
examples of colleges where in fact that is the case.
    There are no minimum standards in terms of the percent of 
students who get jobs or whether they can pay their loans back. 
That is all to the extent that we have such standards those are 
parts of federal regulation.
    So I do think they should be part of accreditation as well.
    Mrs. Davis. Ms. Neal, did you want to comment? I am sorry.
    Ms. Neal. I wanted to also talk about the innovation 
question. I mean, the current accreditation process is a 
decennial, every 10-year process. It is not one that is keeping 
up with changes, and in fact, as I think we have heard, it 
inhibits and hurts change in a very rapidly changing higher 
education landscape.
    And as Kevin has indicated, many of the things that we are 
seeing come on board are the ones that are most likely to 
provide access and affordability; two things that we want for 
Americans.
    So the current system really can't handle it. How can it be 
handled? There are certain things out there now which are 
beginning to address this, for instance, ACE now does an 
approval process for individual courses so it is possible for 
them to obtain credit.
    And again, this is a very interesting area because transfer 
of credit is also a very costly issue and it is one that is not 
well handled by accreditation. It keys into issues of 
articulation agreements and one of the questions that ACTA and 
Kevin and others have raised is the privileging by accrediting 
organizations of their own accredited institutions in the 
matter of transfer so that often it may even be difficult to 
transfer a SACS credit to another one because two different 
accrediting agencies have accredited.
    This obviously is not a good situation and we have in fact 
asked the Department of Education and Secretary Duncan to 
report to us on what the costs of this transfer difficulty are 
causing for students.
    Chairwoman Foxx. Ms. Neal, I am sorry. We are going over 
considerably, and I am trying to be fair to everybody.
    Mr. Guthrie, you are recognized for 5 minutes.
    Mr. Guthrie. Thank you, Madam Chairman. I appreciate that 
very much.
    And actually, what Ms. Neal did lead into the question I 
was going to ask, the first question I was going to ask any way 
and Dr. Sibolski, in your written testimony you talked about--
and what we have heard a lot is that the accreditation process 
stifles innovation.
    We have heard that and we have also heard that it is very 
expensive and so--but in your written testimony you said that 
accreditation agencies are reforming their processes to adapt 
to innovations within higher education, to be more compliant 
with innovation and try to make it cheaper.
    So what have your colleagues done to make the process of 
accreditation easier or cheaper or to react to more--be more 
reactive to innovation for institutions?
    Ms. Sibolski. I think two different areas that you are 
actually asking about right there. So let me take innovation 
first.
    We certainly are as outlined in my testimony, trying to 
deal with--in the most direct instance right now, competency-
based education, and an awful lot of what is out there right 
now is going--seems to be going in that direction where seat 
time is not what we really would be measuring, but certainly we 
want to look at skills, abilities, and so on as students move 
through a program.
    The current rules that we operate under do not allow us to 
work with competency-based education, so we have to, sort of, 
morph that into something that is acceptable through the 
financial aid programs and that is through direct assessment 
programs.
    So, right to begin with, we have a little bit of confusion 
with our institutions about--so what is it that they are really 
asking about and how do we try to work with this.
    We are dealing with that right now, and with the Middle 
States Commission we have several institutions that have done 
wonderful programs in competency-based education that have been 
accredited actually by disciplinary accreditors but are not 
eligible for Title IV programs. We are trying to fix that.
    So that speaks to the innovation area. In terms of trying 
to change our processes, we are aware of the cost. We are aware 
of the need to try to pare this down, and I think the question 
becomes how do you do that and still address some of the 
questions that were towards the end of my oral testimony--how 
do you make sure that you are doing a thorough job of doing the 
accreditation activity and still make sure that it is cost 
effective and timely. That is a tough thing to try to 
negotiate.
    But again, we do some processes that allow institutions 
that are in good stead with us to actually move into a kind of 
accreditation that allows smaller teams to visit, that allows--
--
    Mr. Guthrie. I have only got so much time and I want to ask 
one more question so I----
    Ms. Sibolski. All right.
    Mr. Guthrie [continuing]. And I appreciate that very much. 
I appreciate what--but, Mr. Carey, you were talking about--I 
understand if a Nobel Prize winner in physics wants to teach a 
physics course, I would love for my kid to be able to go take 
that course whether it's on-line or whatever.
    But when we are dealing with federal tax dollars and--how 
do you know you get what you pay for--and I would guarantee you 
if we would say you can follow whatever course you take your 
money can follow you, there will be a lot of people popping up 
teaching courses.
    And it is easy to bring up the example of Nobel Prize 
winner because that is self-evident, that is somebody that can 
teach a course or at least have something to learn from, but 
how would you police what I would guess would be somebody 
popping up on every corner trying to teach a course if the 
money followed that.
    Mr. Carey. I would say that anybody who wanted to get 
approval under such an alternate system would have to guarantee 
three things.
    One, very explicit statement exactly what was being taught 
and what students were expected to learn.
    Two, what is the process by which learning results are 
going to be evaluated.
    And three, what are those learning results reported to the 
public on a real-time basis so anybody whether it be a 
lawmaker, a regulatory body, a state legislator, a parent, or a 
student can see exactly what is going on.
    Those are three standards that we do not apply currently to 
accredited colleges and universities. You can't even tell what 
the syllabus is for a lot of classes unless you email the 
professor and ask and it is up to him or her to give it to you.
    So I think by setting a high bar of at the minimum 
transparency for what is being taught, how it will be assessed, 
and what the results are, we are actually setting a much higher 
standard than we currently have.
    Mr. Guthrie. Would you argue that that if you go to an 
accredited university--each course should be accredited? Is 
that what you are--not accredited like in the traditional way, 
but the way you are suggesting?
    Mr. Carey. I think that we should for the new system if 
people just want to sell one fantastic course and do nothing 
else but specialize because I think that is where a lot of 
innovation and competition happens in market places; if people 
who specialize compete with large organizations, then yes----
    Mr. Guthrie. It would be somebody outside of a traditional 
university or college. This would be--you would still have an 
accredited university that you go to or you could do these 
alternative--you would have an alternative accreditation for 
alternative courses?
    Mr. Carey. Yes, that is correct.
    Mr. Guthrie. I am out of time so I yield back, Madam 
Chairwoman. Thank you.
    Chairwoman Foxx. Thank you, Mr. Guthrie.
    Mr. Tierney, you are recognized for 5 minutes.
    Mr. Tierney. Thank you.
    And thank the witnesses for the testimony.
    Dr. McComis, I am going to ask you this question. I think I 
am asking the right person. How is it possible that for so many 
for-profit private institutions who have such an incredibly 
high default rate on their student loans is such a--and very 
poor graduation rate factor remain in the good graces of the 
accreditors and get accreditation to begin with and keep it?
    Mr. McComis. Well, certainly many national accreditors look 
at program level outcomes or institutional level outcomes. That 
is a primary factor that is reviewed. As part of the Higher 
Education Act and regulations that ensued from that, there are 
requirements for accreditors to look at cohort default rates 
and to evaluate the extent to which institutions encourage 
students to pay those loans back.
    And my agency for example does a number of things to 
monitor on an annual basis those----
    Mr. Tierney. I guess--I hear what you are saying but can 
you answer the question? How is it that they continually have 
these high default rates and low graduation rates, but keep 
getting accreditation and retaining it?
    Mr. McComis. Well, the graduation----
    Mr. Tierney. Who is not doing their job?
    Mr. McComis. I am sorry?
    Mr. Tierney. Who is not doing their job in the 
accreditation area?
    Mr. McComis. The benchmark by which cohort default rates--
and this is why the triad is so important as a measure for the 
Department of Education to look at and to make a determination 
as to whether or not----
    Mr. Tierney. Then you are saying that you don't do that; 
that is the department's job?
    Mr. McComis. We don't set particular rate numbers to 
evaluate the effectiveness of the program for cohort default 
rates.
    Mr. Tierney. Right. You could, but you don't. All right.
    Ms. Neal, I am all for transparency. I think that is an 
excellent thing only I just talked about one example where it 
doesn't quite work no matter how transparent we are in making 
sure that people know about the high default rates and low 
graduation rates, people keep flocking to a lot of these 
private for-profit schools and ending up with a lot of debt and 
no certificate or no graduation diploma.
    So do you agree there has to be something more than just 
information because I don't think there is any evidence so far 
that indicates that all the information that they have--and we 
put a lot of transparency in the last higher ed bill, but 
unfortunately, we don't see that that is driving a lot of 
consumer decisions?
    People are still sending their kids to very expensive 
institutions and not having the costs held down.
    Ms. Neal. Two things. I think that clearly we have seen 
abuses and problems in the for-profit sector, but I think it is 
also fair to say that we are finding the same kinds of problems 
in terms of low graduation rates and defaults in the nonprofit 
sector----
    Mr. Tierney. To a much different degree.
    Ms. Neal [continuing]. So I think we have to be fair across 
the sectors here because we have got failure everywhere.
    Mr. Tierney. So my question is, though--I agree that there 
is failure everywhere, but it is exponentially higher in the 
for-profits on the private schools on that, but on just 
transparency, if we relied just on transparency, I don't think 
there is any evidence that shows us that it is going to be the 
answer.
    Ms. Neal. It is always true to say that a consumer may pick 
a bad place and it may not be the best one, but it gives----
    Mr. Tierney. Well, but we are the federal government giving 
money--we have got a responsibility to be accountable so we 
don't want----
    Ms. Neal. Well absolutely, which is why I think coming up 
with a system that provides key data that admittedly our 
imperfect proxy for quality but will provide a consumer with 
some sense of graduation rates----
    Mr. Tierney. How are you going to get--I hear all that. And 
I don't mean to argue with you, I just got limited time. Great. 
You have all this information. You have all the data. You throw 
it all out there, who is to say the consumer is going to use it 
properly or use it at all? There are a lot of people expecting 
to send their kids to a----
    Ms. Neal. I trust individuals to make good decisions for 
themselves and I think----
    Mr. Tierney. Okay, despite the lack of evidence that that 
is going to happen.
    Mr. Carey, who is going to set the standards in your 
system?
    Mr. Carey. So I--one way in which I may differ from Ms. 
Neal is I do think that there needs to be a regulatory 
function. I know that this is always a tricky conversation to 
have about creating new federal regulatory power, but when we 
are dispersing again $150 billion a year into the system, that 
is where we are.
    I think that--but I don't think that the setting of the 
standards needs to come from accreditors necessarily. One could 
imagine for example groups of scholars; one could imagine 
industry groups contributing to the process----
    Mr. Tierney. But we are still in the imagination stage in 
this. We haven't firmed up an idea of who this is going to be.
    Mr. Carey. Right.
    Mr. Tierney. So we are a long way from that on that basis. 
I was just trying to find out how much developed we had this 
idea and I just note that, you know, having somebody have a 
Ph.D. in physics putting an online course out in physics 
doesn't mean they can teach anybody. I mean, we have all seen 
some pretty boring and noncommunicative Ph.D.s out there so I 
think it has got to be something beyond that on that basis and 
I guess we are still looking to find out who set the standards 
and to make----
    Mr. Carey. I agree.
    Mr. Tierney. All right.
    Thank you. I yield back.
    Chairwoman Foxx. Thank you, Mr. Tierney.
    Mr. Hudson, you are recognized for 5 minutes.
    Mr. Hudson. Thank you, Madam Chairman.
    I thank the witnesses for being here today. I actually have 
a chart I want to put up if the staff could throw that up.
    This is a--it is a little difficult to see but this is a 
chart that was given to me from a community college president 
in my district that outlines the process of accreditation that 
he goes through when accrediting the college.
    I will just highlight a few things here. It is a little 
difficult to see, but he begins the process and starts to 
organize January 2011 and then goes through each step of this 
process all the way up to the end with the board action June 
2014.
    So we are looking at a 3.5 year process. This is for a tiny 
rural community college in a rural and disadvantaged community 
in my district.
    Obviously I am--I recognize the key role that community 
colleges play particularly in areas like North Carolina that I 
represent. I am a former trustee of a community college. The 
community college--we have excellent colleges in North Carolina 
that play a critical role in job retraining and helping create 
jobs in our communities.
    And--but what I am hearing from many of the college 
presidents is that compliance with the accreditation process is 
taking 3 to 4 years. It is extremely burdensome.
    In this college example, their compliance report was 371 
pages plus thousands of pages of electronically-linked 
supporting documentary evidence.
    The college president said that he is having to take 
personnel away from the classroom to help prepare these 
reports. It is an incredibly onerous process for the colleges.
    I guess addressed to Dr. McComis, you have heard Ms. Neal's 
model for an alternative to accreditation. I would just like to 
offer you an opportunity to maybe respond to this process.
    Is there a way that we can do this that isn't so 
burdensome, that doesn't take so much time for the college, so 
much cost for the college, pulling people out of the classroom? 
How would you respond to this?
    Mr. McComis. Well, certainly the accreditation process is 
one that requires institutions to go through a process of self-
evaluation to demonstrate to their accreditor that they are 
meeting those best practice standards, and yes, that takes 
evaluative time and it takes effort and it takes thinking on 
part of administrators and faculties to come together in a 
partnership and in a group to make those kinds of assertions 
for themselves to make that demonstration to the accreditors 
that is there to look at the quality assessment paradigm that 
they are meeting those best practice standards. That is part of 
the gatekeeping function. That is why the federal government 
relies upon accreditation to do that.
    Now, for national accreditors, the institutions tend to be 
smaller and the time periods tend to be less and the costs tend 
to be less than a much larger research institution or college 
or university for the regionals.
    The average length of time for an institution to go through 
a renewal process with my agency is just over a year. Cost 
again is about--direct cost is about $10,000.
    So----
    Mr. Hudson. With all due respect, that is different from 
what I am hearing.
    Mr. McComis. Well, again, the institutions tend to be 
smaller----
    Mr. Hudson. Well this is a small community college, I 
promise you, in a rural community in North Carolina. This is 
not a major institution. Sorry for interrupting, but----
    Mr. McComis. No--so again for an institution accredited by 
my agency again it takes about again for the renewal a little 
over a year and a direct cost to my organization of about 
$10,000.
    But the process is what is important and what Ms. Neal is 
describing is one that takes away that assessment of all of 
those input standards, all of those best practices.
    Governance functions already exist and they aren't 
producing the quality either, so to take away the regulatory 
component or the oversight component of accreditation seems 
counterintuitive to me.
    We--there is no evidence that governance alone or the 
institutions alone are going to be able to produce any more 
quality or meet any more expectations than what accreditation 
has attempted to produce.
    Mr. Hudson. Thank you for your answer.
    And Ms. Neal, with the rest of my time, would you like to 
respond to that? I mean, I find your model interesting. I 
certainly think the current model is too burdensome for our 
colleges. We need to move toward something else. Maybe if you 
could respond to what the doctor was saying.
    Ms. Neal. I just wanted to concur that the cost really is 
not being matched by the benefits. I think for institutions 
such as the one in your district, and already college costs are 
too high, so I think we really in an effort to protect the 
federal dollar and to protect the consumer we have to find a 
way that will be simple, understandable, not costly, and I 
think that is why this alternative prescription which does keep 
a regulatory role of the Department of Education that is 
ensuring financial stability, I think there is a list that 
comes out regularly about institutions that may or may not meet 
the asset test that is required and it is not even clear to me 
that even when those schools are on that asset test that they 
are closed down.
    So I think we would demand that the Department of Education 
be more punctilious in applying financial stability and that 
would be its regulatory role, and then we would fall back on 
consumer information as an additional component.
    Mr. Hudson. What--well, my time is expired. I will see if 
we have another round, but thank you, Madam Chair.
    Chairwoman Foxx. Thank you.
    Ms. Bonamici, you are recognized for 5 minutes.
    Ms. Bonamici. Thank you very much, Chairwoman Foxx.
    And thank you all for this fascinating discussion. I don't 
think there is any question here that all of us are committed 
to find ways to improve not only accessibility in terms of cost 
but also quality and this is an important discussion in that 
regard.
    Ms. Neal, in your testimony you cite ``Academically 
Adrift'' and you talk about the troubling academic decline and 
how the quality of higher education is inadequate; you call it 
a national crisis--that is pretty alarming.
    And Mr. Carey, you sound to some similar alarms with--you 
say academic standards are in decline and I was especially 
interested in the--and the significant decrease in the number 
of hours that students study--pretty alarming.
    But I wonder if we could talk a little bit about how much 
of that really has to do with accreditation. It sounds pretty 
clear that there are some changes that need to be made in the 
accreditation system. No question, but how much of that change 
is actually going to solve what you have identified as this 
national crisis?
    If we fix the accreditation system, we still haven't fixed 
the funding cuts. We still haven't fixed the problem of a whole 
generation of students who have gone through K-12 education 
with a limited curriculum narrowed; they are missing arts and 
music and classes that lead to critical thinking. So if we fix 
accreditation, could you opine about how much we have actually 
made a dent in what you have identified are the challenges?
    Mr. Carey. Well I certainly wouldn't suggest that fixing 
accreditation will solve all of those problems, but I do think 
accreditation plays a key role. We know that the long-term 
trends in higher education as you said declining academic 
standards, prices going up and up and up, and it is not that 
the people--it is not that the accreditors are indifferent to 
those problems, it is just that as the system is built, they 
don't really have any power to solve them.
    So in addition to solving the finance problems in the 
preparation of students in our K-12 schools and a host of other 
issues, we need a quality control infrastructure that 
encourages--that is such high academic standards and encourages 
competition in the marketplace from colleges or other kinds of 
organizations that can prove that the quality of their academic 
offerings are very high and at a high value for students, and 
we don't have that now.
    Ms. Bonamici. I understand what you are saying, but is 
there any indication that if we had some sort of solution to 
accreditation--I know it is costly, it takes a long time--I 
assume for the purposes of this question that that is done, is 
there any indication that that is going to change the 
challenges of the students who study fewer hours or aren't 
graduating? Is that really going to solve the issue or is it 
just a piece of the puzzle?
    Ms. Neal. Well, we certainly--if we relieve our 
institutions of what one person has described as a bureaucrat's 
dream and a thinking person's nightmare, the accreditation 
system, I think we will give just the opportunity costs that 
are lost in processing this paper in a system that really has 
not guaranteed quality control, I think will help these 
institutions to focus more closely on academic quality.
    I mean effectively today, institutions are competing on 
their climbing walls and things that do not relate to education 
and the accreditation process has certainly done nothing to 
turn that attention away.
    So I do believe that eliminating a process and that is 
costly, time-consuming, and secretive, and allowing then 
institutions to focus their energies on what we truly need--
student learning and value added at our institutions--then yes, 
we will advance the cause of higher quality.
    Ms. Bonamici. And this may be a tough question to answer 
because of the link between the financial aid and 
accreditation, but has anybody ever studied whether students 
and families actually look for accreditation? They have to if 
they are getting financial aid, but is it something that is 
important to them or are they looking for the good climbing 
wall?
    Ms. Neal. Again, I think that there is this general 
perception by families to the extent that they think about it 
at all is that if they see it they think, ah, Good Housekeeping 
seal of approval, but in fact, that is not and so I think it is 
deceiving parents to the extent that they think about it.
    And of course, obviously, if they want to take federal 
dollars, they have to go to an accredited institution. So 
subliminally at least, they are thinking about it.
    Ms. Bonamici. All right. In my remaining time, I know Ms. 
Neal you mentioned the accreditation started we are concerned 
about diploma mills and I share Mr. Tierney's concerns about 
these for-profit colleges with low graduation rates, are you 
convinced that we can devise and accreditation system that 
still protects students and families?
    Ms. Neal. I think on the issue of diploma mills, frankly 
accrediting bodies have not been good in addressing that. I 
think if we look to the triad, if we look to the states, the 
consumer protection and the attorney generals in the states 
have been fairly effective in dealing with diploma mills and 
consumer fraud. And I think we have to remember that the states 
play a significant role in helping to ensure quality in this 
regard.
    Ms. Bonamici. My time has expired. Thank you, Madam 
Chairwoman.
    Chairwoman Foxx. Ms. Bonamici, I really appreciate your 
honing in on the things you honed in on. I think what we are 
not talking about today but that you are skirting around in 
your questions is we haven't decided in this country what the 
mission of higher education is, I think and that sort of is the 
nub of the issue I think you are getting at.
    Mrs. Brooks, you are recognized for 5 minutes.
    Mrs. Brooks. Thank you, Madam Chairman.
    And thank you to the panel for being here. I too have come 
from a community college where prior to serving I was a senior 
vice president and general counsel for Ivy Tech Community 
College, and so my questions are going to be a bit on the 
credit hour issues, the transfer of credits, and then the 
competency-based education which I am looking and hoping that 
we are moving toward in some manner.
    And Dr. McComis, you mentioned in your testimony that that 
credit hour regulation is one example of federal regulations 
that inhibit innovation in higher ed, and as we are getting 
ready to go through the reauthorization of the Higher Ed Act, 
can you please share with us any other regulations or any other 
examples of things we might need to be looking at very 
specifically that are preventing that innovation?
    We also have while I was at Ivy Tech, Western Governors 
University was started in Indiana and I think our you know, 
more traditional schools are very leery of things like 
Western--WGU and--but it is providing an incredible opportunity 
for a lot of adults to get their degrees, and I am just 
curious, what are some of the things we should be thinking 
about with respect to accreditation and innovation?
    Mr. McComis. Well, on the specific issue of the credit hour 
and direct assessments which is the term that is used in the 
current regulations, relieving the tension that exists between 
those two different things and within the regulatory framework 
and through the Higher Education Act.
    So making clear that institutions and accreditors can look 
for and should look for those innovative designs and to use the 
tools that already exist and enhance those as I described 
before, there are allowances for consortium and partnership, 
written agreements between non-accreditable and accreditable 
institutions through the regulatory framework. And I would 
enhance those and look at ways to broaden and embrace that.
    But again, always keep the accountability with the 
institution because that really is where the locus of that 
control and locus of responsibility should retain.
    Mrs. Brooks. Ms. Neal, I am curious where your thoughts are 
with respect to the competency-based education and with 
technology having, you know, moving at such an incredible pace, 
where does our--where should we be looking at that with respect 
to the reauthorization of Higher Education Act?
    Ms. Neal. Well again, I think we really want to welcome 
these new delivery models which provide greater access and are 
much more affordable than most of the traditional modes of 
delivery that the current accreditation system deals with.
    So I think as we look to reauthorization, obviously a 
system should be put in place that welcomes and is receptive to 
these new methods.
    I think our current system quite frankly privileges 
reputation because it really doesn't provide any information as 
to value, and I think the lack of consumer information makes 
the focus on climbing walls or other things because it is so 
hard to find out, is the school actually adding value.
    So I think there are many hidden gems out there, for 
example, the School of Liberal Arts College in Oklahoma, which 
for less than $10,000 is providing a rigorous core curriculum, 
but how do parents find out about it? Under the current system 
of accreditation, they would never know.
    Mrs. Brooks. I have one other question with respect to 
transfer of credits, and I am curious in the accreditation 
process when a community college system specifically encounters 
many obstacles in transfer, how is that taken into account 
during the accreditation process?
    So for instance, a 4-year, your traditional 4-year academic 
institution often will deny community college programs 
different transfers of credit and how is that being dealt with 
in your institutions?
    Mr. McComis. So as I mentioned in my written testimony, I 
think that it is important for accreditors to have standards 
that say that institutions cannot deny credit along those--and 
they should take--go through the process of making a 
determination about the transferability of those.
    And there have been, through the accreditation community, 
written statements and agreements that accreditation that 
should not be the sole reason why credits are denied.
    It is not accreditation that causes the denial, it is the 
decisions that are made by institutions and I believe that that 
is why standards are so important to say to institutions, you 
cannot deny transfer of credit based upon something as simple 
as that other agency or where it came from or the type of 
school.
    Every student should have the opportunity to demonstrate 
that their English 101 or whichever course it is, is equivalent 
to and institutions should respect that and go through that 
process.
    Mrs. Brooks. Thank you, and I agree.
    And I yield back. Thank you.
    Chairwoman Foxx. Thank you very much.
    I have a couple of questions and then we'll be wrapping up.
    Ms. Sibolski, I wonder--in your written testimony you talk 
about how credit hour and state authorization regulations have 
created significant burdens for institutions and accreditors. 
My colleagues and I have been concerned about these regulations 
as well.
    In fact, the implementation of this state authorization 
regulation has been delayed, somewhat, yet again because of 
opposition from Congress, states, and colleges and 
universities.
    Can you discuss why these regulations are burdensome to 
accreditors and institutions?
    Ms. Sibolski. Sure. Let me first of all talk about the 
state authorization issue. There is an awful lot of confusion 
out there and although I think there have been some Dear 
Colleague Letters that have been published about this, is it 
enough? Clearly it is not. The kind of questions that we are 
getting from our institutions indicate to us that they don't 
know what they are supposed to do and when they are supposed to 
do it.
    That is a terrible situation for an institution to be in, 
and although it is a problem across the country, we know that 
it is specifically a problem in California.
    And although I can't comment directly on that, it is not my 
region, I would just simply note that that is the case. So if 
we are going to add regulations to institutions, we have 
certainly got to give them the tools to understand what it is 
that they are being asked to respond to and give them 
appropriate time to do that.
    I think that has not happened in this case. And so in 
addition to that, the credit hour rules are a problem for us 
because of the volume of what we are now having to look at for 
institutions.
    Should we be looking and have we been looking in the past 
that things like the regulations that institutions use to 
define academic quality? Yes. In this case, we are looking at 
policies on credit hours.
    We should be looking at that level but then to ask 
something like a large research university, to go through a 
sample of all of its courses that we are selecting in order to 
review specifics in each course represents a level of attention 
to detail that we have not been at before, and if that is where 
we need to go, then we need to get common understanding about 
it.
    Chairwoman Foxx. Would you say that level of detail is 
another phrase for intrusion?
    Ms. Sibolski. Yes, I would.
    Chairwoman Foxx. Thank you. I know I don't have a whole lot 
of time, so I am going to ask you and Dr. McComis to respond to 
this next question as quickly as you can.
    Could you compare and contrast the accreditation processes 
in turn--and emphasis that you have on inputs versus outputs? 
This is a great concern to me and others.
    Ms. Sibolski. Just very quickly, when I joined the 
accrediting commission some 10 years ago, we were looking much 
more at inputs. The focus of our standards on student learning 
outcomes are really now on what are the skills, abilities, and 
knowledge that a student graduates with. As so we really are 
focusing on the outputs.
    It is still a struggle to work with our institutions to get 
there, but we are all of us working on it.
    Chairwoman Foxx. Dr. McComis?
    Mr. McComis. It is a balance that needs to be achieved 
between those two and one informs and drives the other. So to 
rely solely on outcome standards would prevent the rich 
evaluation that an institution goes through the review of its 
own inputs and evaluative process.
    But having said that, the reliance upon at the end of the 
day, what were the objectives of the institution? What was the 
student to know through going through that program? Did they 
learn those things? And can we measure that learning?
    What are the rates of graduation? And at institutions like 
those that my agency accredits, how many of those folks got 
jobs at the end?
    Chairwoman Foxx. Well, thank you all very, very much for 
being here today. I am going to make a few closing comments, 
and I want to go back to what I think Ms. Bonamici was getting 
at about looking at the mission of higher education.
    I do think that that is something that we are not agreed 
upon in this country at all and haven't perhaps ever been 
agreed upon on it.
    I want to in a way, apologize to Ms. Neal for having to cut 
her off because it really pains me to do that for any of you 
because all of you have brought great information to us today.
    I think in many ways that these hearings are an archaic way 
of doing business. I have felt that since we got here. We talk 
about the need for innovation and the need to use technology, 
and yet here we are in Congress, not being very good role 
models in terms of how we get out information.
    But I frankly haven't found a better model, but I think we 
do get sometimes some very revealing information and sometimes 
stunning things. I think the comment about there being no 
minimal standards for outcomes in accreditation really struck 
me, Mr. Carey, and I appreciate your bringing that up because I 
do think that is something that the American people don't 
understand and Ms. Neal, brought it up in her comments, her 
good way of looking at that that people think accreditation is 
the Good Housekeeping seal of approval and yet we really don't 
know what that means.
    Parents and students, Mr. Tierney wants to know is can we 
get consumers to use information. Well, they are not getting 
very good information and if that is all they know.
    I am concerned about Mr. Tierney's comments about the high 
default rates and low graduation rates only in the for-profit 
sector. If you look at the high default rates and low 
graduation rates as you said, Ms. Neal, and I appreciate your 
saying that, it exists across the sectors.
    There are certainly plenty of nonprofits that have those 
same characteristics. So I think it is an issue we have to deal 
with in all of higher education.
    We haven't even touched the issue of disciplinary 
accreditors and as I was going over the material last night in 
preparation for this today, I thought, oh my goodness, we are 
not talking about the American Bar Association, we are not 
talking about business schools being accredited and what they 
go through, nursing schools, schools of education.
    I mean, we--this is only the tip of the iceberg that we are 
talking about because practically every discipline has their 
own accreditation process and they are very, very expensive and 
they are very, very time-consuming.
    So again, we are not very good at innovating here 
ourselves, but I do think we are stifling innovation in higher 
education with our accreditation process.
    Those who are in are in great shape in most cases, but 
those who are trying to get in the system have a much higher 
bar to jump over it seems to me than those who are already in 
and that is not fair, and my colleagues all the time are 
talking about fairness and that is something that hardly ever 
comes up.
    So I want to say thank you again very much for stimulating 
some thought and some good conversations here. I think all of 
you have brought a lot of good information to us today.
    We haven't answered all the questions that people have, I 
think, but that is good. In education, what we should be doing 
is stimulating thinking. That is not what is always happening 
in our institutions of higher education, but I hope it is 
happening with hearings like this.
    And so I want to thank you all again for taking the time to 
do this, and I want to thank the staff, too, because I think 
the staff does a wonderful idea--wonderful job of bringing in 
people who can help inform us.
    We are all torn six ways from thunder and don't have the 
time to do all of the reading we need to do and the educating 
of ourselves and the staff points us gently in the right 
direction a lot of times in ways that we wouldn't go ourselves. 
So, thank you all very much.
    There being no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 11:36 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
